<html>
<title> - THE BERGDAHL EXCHANGE: IMPLICATIONS FOR U.S. NATIONAL SECURITY AND THE FIGHT AGAINST TERRORISM</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                THE BERGDAHL EXCHANGE: IMPLICATIONS FOR
                  U.S. NATIONAL SECURITY AND THE FIGHT
                           AGAINST TERRORISM

=======================================================================

                             JOINT HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                AND THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 18, 2014

                               __________

                           Serial No. 113-158

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

88-387 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, Massachusetts
SCOTT PERRY, Pennsylvania            AMI BERA, California
STEVE STOCKMAN, Texas                ALAN S. LOWENTHAL, California
RON DeSANTIS, Florida                GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
SEAN DUFFY, Wisconsin

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director
               Jason Steinbaum, Democratic Staff Director







         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           BRAD SHERMAN, California
ADAM KINZINGER, Illinois             ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   JOAQUIN CASTRO, Texas
TOM COTTON, Arkansas                 JUAN VARGAS, California
PAUL COOK, California                BRADLEY S. SCHNEIDER, Illinois
SCOTT PERRY, Pennsylvania            JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts

                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
DOUG COLLINS, Georgia                BRADLEY S. SCHNEIDER, Illinois
MARK MEADOWS, North Carolina         JOSEPH P. KENNEDY III, Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
SEAN DUFFY, Wisconsin                LOIS FRANKEL, Florida






















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Andy Andrews, father of deceased Second Lieutenant, USA, 
  Darryn Andrews.................................................    12
Spc. Cody Full, USA, Retired (served with Sgt. Bergdahl in 
  Blackfoot Company, Second Platoon).............................    17
Mr. Mike Waltz, senior national security fellow, New America 
  Foundation (commanded a Special Forces' Company in Eastern 
  Afghanistan in 2009)...........................................    27
Mark Jacobson, Ph.D., senior advisor, Truman National Security 
  Project........................................................    38

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Andy Andrews: Prepared statement.............................    14
Spc. Cody Full, USA, Retired: Prepared statement.................    19
Mr. Mike Waltz: Prepared statement...............................    29
Mark Jacobson, Ph.D.: Prepared statement.........................    40

                                APPENDIX

Hearing notice...................................................    78
Hearing minutes..................................................    79
Material submitted for the record by the Honorable Ted Poe, a 
  Representative in Congress from the State of Texas, and 
  chairman, Subcommittee on Terrorism, Nonproliferation, and 
  Trade..........................................................    80
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    82

 
                  THE BERGDAHL EXCHANGE: IMPLICATIONS
                   FOR U.S. NATIONAL SECURITY AND THE
                        FIGHT AGAINST TERRORISM

                              ----------                              


                        WEDNESDAY, JUNE 18, 2014

                     House of Representatives,    

       Subcommittee on Terrorism, Nonproliferation, and Trade and

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committees met, pursuant to notice, at 2 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order. Without 
objection all members will have 5 days to submit statements, 
questions, and extraneous materials for the record subject to 
the length limitation in the rules.
    The purpose of this hearing is to hear more about Sergeant 
Bowe Bergdahl and his exchange for five terrorist prisoners 
from Guantanamo Bay. Let's hope that the Bergdahl negotiators 
are not the same ones currently negotiating with Iran over 
nuclear weapons.
    Be that as it may, releasing five senior Taliban commanders 
may put the lives of our senior service members and Americans 
around the world at risk. One of the five detainees was a 
Deputy Chief of the Taliban's Intelligence Service. One 
detainee fought alongside al-Qaeda as a Taliban Military 
General. Another was a Senior Commander wanted by the United 
Nations for war crimes and worked closely with al-Qaeda and 
their affiliates. In fact, he led an attack with al-Qaeda the 
day before 9/11. Al-Qaeda called this attack an important part 
of the 9/11 total strategy. And still another was a close 
confidante of Taliban Leader Mullah Omar.
    The terms of the release to Qatar are quite disturbing. 
They may help out the Taliban while they are in Qatar, and it's 
very likely that all of them will end up fighting alongside the 
Taliban in Afghanistan later in the year. That will be about 
the time United States forces will be leaving and the Afghans 
will be on their own.
    It appears that recent law that was signed by the President 
was violated in this secret deal. This law, among other things, 
requires two things; that the administration must notify 
Congress 30 days before releasing Guantanamo Bay detainees. 
And, second, the administration has to specifically tell 
Congress how releasing each terrorist is in the national 
security interest of the United States. The administration did 
neither. Plus, it has been the policy of the United States not 
to negotiate with terrorists, and this seems to also have been 
violated.
    The Haqqani Network are the ones who held Sergeant 
Bergdahl. It's a designated foreign terrorist organization 
according to the United States State Department and has killed 
countless Americans and Afghan soldiers. It maintains close 
ties with al-Qaeda and it's the most dangerous terrorist group 
fighting in Afghanistan.
    It doesn't matter that Qatar acted as a go-between the 
United States because it did involve negotiating with 
terrorists in the Haqqani Network. This raises another concern 
close to home in Texas.
    One of my constituents, Victor Lovelady, was taken hostage 
during the terrorist attack on an Algerian gas facility in 
January 2013, an event that many Americans have forgotten. He 
was captured after he hid some of his coworkers in a space in 
the refinery. The terrorists never found the coworkers and they 
eventually escaped alive.
    It's been reported that the hostage takers wanted to trade 
those three American hostages at the facility, including 
Victor, for two convicted terrorists in the United States 
custody. Victor's brother, Michael, and his daughter, Erin, 
wrote to me recently to say that they were told by our 
Government during the attack that the United States does not 
negotiate with terrorists. Victor was later killed.
    I ask for unanimous consent that the letters be made part 
of the record. So ordered.
    The Bergdahl release troubled them, and rightly so. 
Victor's daughter wrote to me in this letter, ``The question 
that continues to come to mind is what makes one American life 
more important than another? And if we're going to negotiate 
for one, why would we not negotiate for everybody?'' I cannot 
answer that question, and I really do not know what the United 
States' current policy is on negotiating with terrorists. Maybe 
we will find out.
    Negotiating with a designated terrorist organization like 
we did with the Haqqani Network is unprecedented. Department of 
Defense says it will hold Sergeant Bergdahl accountable for his 
actions; however, National Security Advisor Susan Rice has said 
that Sergeant Bergdahl has served with honor and distinction. 
Once again, this hearing will shed more light on that issue. 
One of our witnesses today served with Sergeant Bergdahl and he 
will discuss Bergdahl's disappearance.
    Secretary of Defense Chuck Hagel is on record stating that 
he was not aware of any United States soldier who lost their 
life in search for Sergeant Bergdahl. The family of one of 
those brave Americans who gave his life, Lieutenant Darryn 
Andrews, is here today to set the record straight. He earned a 
Silver Star for his actions which included protecting his 
brothers in arms and taking the brunt of the Taliban rocket-
propelled grenade which ultimately took his life. Darryn left 
behind a pregnant wife and a young son at the time of his 
death.
    So, today we have witnesses who can tell us what else 
happened in eastern Afghanistan in 2009, those who have 
suffered as a result, and what this so called deal may mean for 
Afghanistan and the United States going forward.
    I yield back my time, and I will now recognize the ranking 
member from California, Mr. Sherman, for 5 minutes.
    Mr. Sherman. Thank you. Mr. Andrews. We know that you are 
the father of Darryn Andrews, Second Lieutenant who gave his 
life for his country. We cannot thank you enough for your 
family's sacrifice. We salute Darryn's courage.
    I would also like to thank you, Specialist Full for your 
service to our country. Mr. Waltz is a Senior National Security 
Fellow at the New America Foundation who commanded Special 
Forces in eastern Afghanistan. Thank you for your service. And 
Dr. Jacobson, thank you for your 20 years of service in the 
military, including your deployment to Afghanistan.
    First, as to a preliminary issue on Iraq, let me point out 
that we do not have forces in Iraq. We do not have a Status of 
Forces Agreement with Iraq. It was President Bush that 
installed al-Maliki as Prime Minister of Iraq in 2006, and the 
misgovernance of Prime Minister Maliki is directly responsible 
for the violence taking place in that country today. It should 
not be surprising that Maliki refused to enter a Status of 
Forces Agreement with the United States under President Obama. 
He refused to enter a long-term Status of Forces Agreement with 
President Bush, the man who, in effect, allowed him to take 
power.
    As to releases from Guantanamo, while we're focusing today 
on five Guantanamo prisoners being released, President Bush 
released over 500 prisoners from Guantanamo. Most of them were 
dangerous. Over 100 of them we know are fighting us on the 
battlefield and we know where. Most of the others are fighting 
against us, as well. We just can't pinpoint where they are 
located. And what did we get for the 500 that President Bush 
released? Absolutely nothing except thank you notes from their 
native countries.
    As to Section 1035 D of the National Defense Authorization 
Act, the President has filed a report. Members of this 
committee can go read it. It is in depth. It is arguably late 
as many reports to Congress are.
    Keep in mind that we have to construe Section 1035 D so as 
to avoid constitutional questions; therefore, it has been and 
should be interpreted not to apply in this circumstance, 
particularly in a circumstance involving a prisoner exchange.
    Keep in mind that the last Republican Attorney General of 
the United States, Michael Mirkasey, stated that ``This code 
section is unconstitutional to the extent it acts to prevent a 
prisoner exchange.''
    Now, I would have preferred if President Obama had, indeed, 
conferred with leaders of Congress. I'm glad to see he is 
conferring with congressional leaders about what to do in Iraq. 
America is strongest when our President views Members of 
Congress as a source of counsel and input, not persons to be 
notified only when the notification is compelled by a 
constitutionally valid statute.
    And I will point out that Members of Congress, leaders of 
Congress can keep a secret. Some 16 congressional leaders knew 
that we had ascertained the hiding place of Osama bin Laden, 
and that information did not leak.
    As to negotiating with terrorists, it's a nice phrase that 
we don't do it. The fact is, we do it all the time. The Bush 
administration negotiated with every single terrorist regime in 
the world. We identified five state sponsors of terrorism, and 
the Bush administration negotiated with Cuba, Iran, Sudan, 
Syria, and North Korea. The Bush administration paid an al-
Qaeda affiliate a ransom for the release of Martin and Gracia 
Burnham. Secretary of State Colin Powell designated the Afghan 
Taliban as an organization authorized for legal authorization.
    Now, it is said that because we paid a price for the 
release of Bergdahl that this put terrorists around the world 
on notice of a fact they somehow didn't know before, and that 
is that America cares about those who are detained. A walk 
through the halls of this building shows the POW flags from the 
Vietnam War. Everyone in the world knows that we care about our 
detainees. There are resolutions introduced by Republican 
members available to anyone on the Internet that show that we 
regard the release of Sergeant Bergdahl as an important 
national objective.
    Bringing our prisoners home is important to America. The 
enemy already knows that, and we know it, as well. And I yield 
back.
    Mr. Poe. The gentleman yields back. For the information of 
the committees, we are in a series of votes. The Chair plans to 
hear the opening statements of all the members and then come 
back for the testimony after the vote.
    The Chair now recognizes the ranking member of the Middle 
East Subcommittee, chairman. You're not the ranking member, 
although----
    Ms. Ros-Lehtinen. It's good enough. Thank you.
    Mr. Poe [continuing]. Mr. Sherman thinks you should be.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Poe. For 5 minutes, thank you.
    Ms. Ros-Lehtinen. Thank you. I thank the witnesses for 
being with us, especially Mr. Andrews whose son Darryn Deen was 
killed in Afghanistan in 2009, and Mr. Full, and Mr. Waltz, 
thank you for your service. Mr. Andrews, I cannot imagine what 
it would feel like to lose a child in the service of our 
nation, but as a stepmother of a U.S. Marine Aviator who served 
in Iraq, and a mother-in-law to another Marine Aviator who 
served in both Iraq and Afghanistan, I know the sleepless 
nights and the constant worry that parents face when their 
child or loved ones are constantly in harm's way.
    Our country owes our brave men and women who have served 
and who have earned our gratitude a debt that can never be 
repaid, but it must start with being completely forthcoming 
with them.
    In late 2011, while I was chair of the House Foreign 
Affairs Committee, the administration gathered the chairmen and 
the ranking members of the pertinent national security 
committees, as well as congressional leaderships to brief us on 
a potential prisoner swap of Taliban terrorists for Sergeant 
Bowe Bergdahl. And although the meeting was classified, news 
reports from just earlier this month indicate that the 
administration had a team of officials from the National 
Security Council, Pentagon, State Department, CIA, Director of 
National Intelligence present the administration's plan to us.
    At the time of the briefing, using all available 
information given to me, I was adamantly opposed to the 
proposed swap, I said so at the meeting as did many of our 
colleagues. My opinion has not changed as more information has 
been revealed.
    I opposed the swap not because I did not want to bring Bowe 
home. It's important to have him home and out of the hands of 
the Taliban. I opposed the swap because the proposal would have 
resulted in a huge coup for the Taliban, would have benefitted 
them, jeopardized the safety and security of our brave men and 
women in uniform, and compromised our national security 
interest.
    With so many of our colleagues expressing our disapproval 
of the swap, the administration seemed to have gotten the 
message and dropped its exchange plan, or so we thought. Then 
earlier this month, I like the rest of my congressional 
colleagues and the American public read the news that the 
administration had swapped five Taliban commanders for the 
Sergeant. Despite his promises to notify Congress, not to 
mention its legal authority to do so, the administration kept 
the deal secret and acted unilaterally. The deal is precisely 
the reason for the legal mandate that Congress be given 30 days 
notice because the administration has a proven track record of 
overstepping and abusing its authority.
    As we've already seen, the Taliban used this to its benefit 
using the video tape of the exchange as propaganda, and as a 
recruitment video. And it has only emboldened them further. Not 
only that, but despite the agreement with the Government of 
Qatar, which by the way is only for 1 year, to supervise these 
five Taliban high-level operatives, there are no assurances 
that they won't be back in the fight in short order and 
orchestrating attacks from their lavish new headquarters in 
Doha.
    The fact that we are placing our hopes in Qatar, a country 
that has been full throated in its support for the Muslim 
Brotherhood, especially in Egypt where Qatar's support for the 
Brotherhood actively worked against our interest in seeing a 
Democratic transition there, will likely further or strain our 
already damaged ties with our traditional partners in the Gulf.
    This may have serious implications for our national 
security objectives, especially as it relates to our efforts in 
Iran. But this swap is more than just Bowe Bergdahl or the 
Taliban, it's about U.S. national security, the safety of our 
men and women in uniform, and it's about the administration's 
disregard for the law and the contempt it holds for its 
obligations to Congress.
    The administration's deal to swap five senior Taliban 
officials for the Sergeant has far-reaching implications. 
Negotiating and ultimately forging a deal with Taliban 
terrorists unnecessarily endangers all of the service men and 
women who are operating in war zones right now that these five 
senior Taliban operatives are likely to rejoin the fight. And 
it also inspires the Taliban and other terrorist groups to 
conduct abductions of our armed forces personnel, as we have 
already seen one Taliban commander admit that the Taliban is 
now encouraged by the results of the Bergdahl trade.
    Then, of course, there are questions of the legality of the 
administration's unilateral decision, and the frustration level 
and lack of trust that Congress has with the administration as 
a result of this swap. There are many, many unanswered 
questions, Mr. Chairman, the administration still needs to 
answer, but for today it's important that we have the 
opportunity to hear from some of the people and how this 
decision has impacted them personally, those who served in 
Afghanistan fighting side by side with a fellow soldier, those 
service men and women who may have been placed even further in 
harm's way as a result of this exchange, and those who lost a 
loved one in Afghanistan, they deserve to be heard, and they 
deserve the truth.
    Thank you, Mr. Chairman, for the time.
    Mr. Poe. Thank the gentle lady for yielding back her time.
    The Chair recognizes the ranking member of the Middle East 
Subcommittee, Mr. Deutch, from Florida for 5 minutes.
    Mr. Deutch. Thank you, Chairman Poe and Ranking Member 
Sherman.
    To our witnesses, thanks for appearing today. Mr. Andrews, 
I join with my colleagues in telling you that words will never 
be enough to express our gratitude for your son, your family 
for making the ultimate sacrifice for this country. I 
appreciate your being here today, and will forever be grateful 
to Darryn for his courageous service to our nation.
    Mr. Full, we're deeply grateful for your honorable service 
to this country. And Mr. Waltz, Mr. Jacobson, thank you for 
being here and for your years of service.
    We all know that there are substantial questions 
surrounding the disappearance of Sergeant Bergdahl and the 
subsequent decision to exchange the Taliban Five for his 
release. It may take months before we know for sure what 
transpired in the days and weeks leading up to the 
disappearance of Army Sergeant Bowe Bergdahl. Was he suffering 
from psychological trauma? Was he AWOL? Was he a deserter? The 
Army investigation has begun and rest assured answers to these 
questions will come to light and the Army will take whatever 
action it deems appropriate.
    I'm a bit perplexed when some Members of Congress have 
already decided the facts of this case. We have a solemn 
obligation to leave no American soldier behind. And when the 
opportunity to get an American soldier back from the enemy 
presents itself, we take it. This country has a long history of 
getting American servicemen back through prisoner exchanges 
because we promised the men and women, when they signed up 
bravely to serve their country, that we would do everything 
that we can to protect them and to ensure that they return 
home.
    Some of my colleagues have apparently concluded now how 
Sergeant Bergdahl's status should be treated, how the facts 
should be resolved. And that perhaps one concludes that he be 
left with the Taliban. So, I would ask what kind of military 
court is it, what kind of military court of justice do we have 
where Members of Congress play the role of judge and jury, find 
someone guilty, and leave it to the Taliban to carry out the 
punishment?
    We have every right to question why Congress wasn't 
consulted and notified of this deal. I believe that was a 
mistake, but I would simply caution against prejudging the 
facts of this case. What message are we sending our troops if 
we don't do everything that we can to retrieve an American 
soldier that the Army has officially declared missing and 
captured? You can have a debate over whether the price for 
Sergeant Bergdahl was too high, and it's an appropriate debate 
to have, but we should also be reminded of the 532 Guantanamo 
Bay detainees who were transferred before this President came 
to office. Where was the outrage then?
    There are those who have suggested that the administration 
has politicized this deal. I would simply point out that many 
members of this Congress who are now saying that they oppose 
this deal supported the very idea of a prisoner exchange and 
were urging the administration to do more to secure the release 
of Sergeant Bergdahl.
    Turning back to our witness, Mr. Andrews, there is nothing 
that we can say to take away the pain of losing a child, and 
I'd like again to offer my sincerest gratitude for Darryn's 
honorable service to his country. I thank you, Mr. Full, I 
thank you for your service, and all of the witnesses for your 
commitment to protecting this nation. I appreciate the 
opportunity to hear from all of you today, and I yield back.
    Mr. Poe. I appreciate the gentleman yielding back some of 
his time.
    The Chair will now recognize the individual members for 1 
minute of their opening statements. Mr. Chabot from Ohio is 
recognized for 1 minute.
    Mr. Chabot. Thank you. Like many of my colleagues and most 
constituents I talk with, I'm very troubled with the 
administration's insistence that the deal made to free five 
Taliban leaders in exchange for Sergeant Bergdahl was the best 
deal we could get.
    The Washington Post reports that among the Taliban Five are 
the former Taliban Interior Minister who was known to have 
close ties to Osama Bin Laden, a former Taliban Army Chief of 
Staff who along with another of the freed Taliban is thought to 
have been present when CIA Officer Johnny Spam was killed back 
in 2001, and two Taliban operatives who work closely with al-
Qaeda, notably Mohammad Nabi Omari, whose case file says is 
``one of the most significant former Taliban leaders detained'' 
at Guantanamo Bay.
    Now, I don't know how many of my colleagues have had the 
opportunity to visit our facility in Guantanamo Bay and look 
into the eyes of those who were involved in the killing of so 
many. I've been there three times. As much as I'd like to think 
that they've learned the error of their ways and want nothing 
more than to spend a quiet life with their families in Doha, 
I'm afraid you'd have to put me down in the skeptical, very 
skeptical column. I yield back.
    Mr. Poe. The gentleman yields back. The Chair will hear the 
testimony or the opening statement of one more member, and then 
we'll hear the rest of them after the vote.
    Mr. Cicilline from Rhode Island is recognized for 1 minute.
    Mr. Cicilline. Thank you, Mr. Chairman. I thank you and 
Ranking Members Deutch and Sherman for holding today's hearing. 
I want to thank all of the witnesses, especially Mr. Andrews 
and Specialist Full for their services and for your willingness 
to share your very personal stories with us today. Words can 
never adequately provide comfort to you, Mr. Andrews, and to 
your family, nor can words convey the deep gratitude of our 
entire nation for the service of your son.
    It's important that we take time today and in the weeks and 
months ahead to diligently, and thoroughly, and dispassionately 
examine the details surrounding the exchange of several high-
value prisoners from the detention facility at Guantanamo Bay 
for the return of Sergeant Bowe Bergdahl.
    We should never lose sight of the long-held American 
tradition that we'll do everything possible to secure the 
release of an American service member. I'm hopeful that today's 
hearing will highlight ways in which the administration and 
Congress can work together to protect the safety of our armed 
forces and insure the security of our country.
    I look forward to hearing from the witnesses and gaining 
greater clarity regarding the circumstances surrounding the 
exchange of Sergeant Bergdahl.
    And, finally, I hope this hearing will serve as a reminder 
to all of us that we must stay focused on ending American 
involvement in Afghanistan, and insuring the safe return of our 
fellow Americans serving there.
    Thank you, and I yield back.
    Mr. Poe. The gentleman from Rhode Island yields back. The 
Chair will be in recess for 15 minutes, and we'll continue with 
opening statements, then testimony of our witnesses.
    [Recess.]
    Mr. Poe. The subcommittee will come to order. The Chair 
recognizes the gentleman from Illinois, Mr. Kinzinger, for 1 
minute.
    Mr. Kinzinger. Thank you, Mr. Chairman. It's fun listening 
to I think the strategy session across the aisle was hey, what 
are going to do? Well, let's blame Bush. It seemed to have 
worked for the last 6 years, so it's going to be an interesting 
hearing.
    I just want to say first off, thank you to the witnesses 
for being here. You know, when I went through survival training 
I was told your country will never leave you behind. I think 
it's very important to note that there was kind of a mutual 
understanding that your country will never leave you behind, if 
you never leave your country behind. And then, secondly, there 
was a mutual understanding that there can be a cost that is too 
great to pay. Your country promised to always search for you, 
they promised to move Heaven and Earth to come get you, but I 
was never in survival training promised that my country would 
release some of the five biggest enemies of the United States 
and the people that we've tried to bring freedom to in 
exchange. So, I'm interested to hear what everybody's thoughts 
is on why this happened, and some of the things surrounding 
this. I only have a minute, so I want to thank the chairman and 
yield back.
    Mr. Poe. The gentleman yields back. The Chair recognizes 
the gentle lady from Florida, Ms. Frankel, for 1 minute. I know 
you ran back.
    Ms. Frankel. Catch my breath. Well, thank you, and thank 
you, gentlemen for all being here. Mr. Andrews, my heart breaks 
for you, and to the gentlemen, I thank you for your service.
    I want to give a little different--my own personal 
perspective. My own son has served both in Iraq and Afghanistan 
as a United States Marine. I'm very proud of that. He is home. 
But I will tell you this, when he went off to war I, of course, 
like probably most parents not only feared he would not come 
home alive, or that he would come home very maimed; but for me, 
my biggest worry was that he would be taken as a prisoner of 
war, tortured, put in a cage. It was just unimaginable. And 
that's why I believe so strongly in the U.S. military principle 
that we should leave no man or woman behind. It maintains 
confidence, it maintains order.
    When we send our young men and women off to war, they 
should know we have their backs. We will do everything possible 
to bring them home. Thank you, again, for your service and, 
sir, for your loss.
    Mr. Poe. The Chair thanks the gentlewoman. The Chair 
recognizes the gentleman from Arkansas, Mr. Cotton, for 1 
minute.
    Mr. Cotton. Five years ago today I was a captain in the 
United States Army in Laughman Province so I think I will take 
the prerogative to speak on behalf of the soldiers who served 
in Afghanistan. I find it offensive and insulting that this 
administration, up to and including the President, would cite 
the principle of leaving no man behind to justify this action.
    Every day in Ranger School we recited the Ranger Creed, 
that I will never leave a fallen comrade. You know who didn't 
leave a fallen comrade, Cody Full, Darryn Andrews, or all of 
the soldiers who went after him in the weeks and the months 
after his disappearance knowing that he had deserted.
    When we made those promises to each other, we didn't 
promise that we would exchange five stone-cold Taliban killers 
for each other, nor would any soldier want that to happen. 
Would we exchange Khalid Sheik Mohammed? Deputy National 
Security Advisor Tony Blinken said directly to me that we would 
not.
    Finally, I want to say something to the anonymous sources 
in the President's administration for disparaging the service 
of the 2nd Platoon and Blackfoot Company. Show yourself, speak 
your own name, have the courage of your convictions. And if you 
don't, shut up and stand back and thank these men for their 
service.
    Mr. Poe. The Chair recognizes the gentleman from Florida, 
Mr. DeSantis, for 1 minute.
    Mr. DeSantis. Thank you, Mr. Chairman.
    I'm hearing my colleagues on the other side talking about 
oh, don't politicize this, but then blame Bush or whatever. It 
seems to me that, you know, the President politicized this when 
he had a White House Rose Garden ceremony for Mr. Bergdahl's 
parents.
    I'm going to ask Mr. Andrews, and I'd like to know whether 
any of the people who served honorably and were killed in 
action were given the courtesy of a Rose Garden ceremony at the 
White House? I think the answer to that is probably no.
    The bottom line here is either what the President did 
benefitted the security of the United States, or it did not. I 
believe it did not, and I think that this was something that 
the American people disagree with. And I see that many of my 
colleagues on the other side of the aisle are looking to 
essentially run interference for the administration by blaming 
previous Presidents. That doesn't cut it. Let's deal with this 
issue as its own, and I yield back.
    Mr. Poe. The Chair recognizes the gentleman from Virginia, 
Mr. Connolly, for 1 minute.
    Mr. Connolly. Thank you, Mr. Chairman. And, Mr. Andrews, my 
deepest sympathy to you and your family. That may be your wife 
behind you? There aren't any words to express the terrible 
sense of loss you must experience. And I've had friends have 
similar losses and my heart goes out to you. Thank you for 
being here today.
    We're here today to examine the decision to exchange 
Sergeant Bergdahl, a soldier held in captivity for 5 years, for 
five detainees in Guantanamo. Now, it's easy to yield to the 
temptation to decide that Mr. Bergdahl did not serve his 
country. I would caution my colleagues, this isn't a partisan 
affair. This is about somebody's service, and we should 
withhold judgment on the quality and nature of that service 
until the facts are known. The benefit of the doubt belongs to 
Mr. Bergdahl pending that. It is not for Congress in advance to 
decide somebody's status before we justify leaving no one 
behind. So, I'm interested in this hearing. I'm interested in 
the facts, and I plead with my colleagues on both sides of the 
aisle this one time to let us resist the temptation of 
partisanship. Thank you, Mr. Chairman.
    Mr. Poe. The Chair recognizes the gentleman from North 
Carolina, Mr. Meadows, for 1 minute.
    Mr. Meadows. Thank you, Mr. Chairman. I recently returned 
from Guantanamo, and got to look in the eyes of many of the 
detainees that are there. Make no mistake, the ones that we 
released, are in no comparison to the 400 or 500 that have been 
released prior. These men were a danger to the ones who guarded 
them, so dangerous that we can't even identify those who do 
guard them for their own protection.
    They are not choir boys, but I will assure you they are 
singing a song. It is a death march for those men and women who 
will come in their way in the future, and the cost in my 
opinion was way too high to release the Taliban Five in 
exchange for this. And with that, I yield back.
    Mr. Poe. The gentleman yields back his time. The Chair 
recognizes the gentlemen from Texas, Mr. Weber, for 1 minute.
    Mr. Weber. Thank you, Mr. Chairman. My colleague is 
correct, this is not a partisan affair. This is the Committee 
of Foreign Affairs, and that it is, it is a foreign affair. And 
the President is charged with negotiating on our behalf, 
unfortunately. I hope that we come to the conclusion to implore 
this President, Mr. President, stop negotiating on our behalf, 
please.
    Some would say that in military terms what the President 
did, we got one conventional weapon, some would say a dud. They 
got five nuclear weapons. Maybe we need to come to the 
conclusion to send a letter to the President, please, Mr. 
President, stop negotiating for us.
    As to the Andrews, as Abraham Lincoln said in a letter to 
Mrs. Bixby, ``There's no words that we can express to you but 
to generally relate our sincere appreciation for your 
sacrifice.''
    Thank you very much. I yield back.
    Mr. Poe. The gentleman yields back. The Chair recognizes 
the gentleman from California, Mr. Rohrabacher, for 1 minute.
    Mr. Rohrabacher. Thank you very much. President Obama has 
put American military personnel, U.S. diplomatic personnel, and 
yes, even American businessmen and tourists at risk by 
releasing five terrorist leaders in exchange for a captured 
American. We have given terrorists the incentive to capture and 
hold hostages more and more.
    I would say that what we have to realize is that our 
President has just made a decision that will result in our 
country and our people being less safe than had he not made 
that decision. And, yes, President Bush released 500 Taliban 
that had been held in GITMO, but let me note, he did not make a 
deal for them. He did a survey to find out if they were the 
least threatening of those people who were being held. Had he 
done a deal for them, we would be condemning him, as well.
    The fact is, this was an exchange, a specific exchange, a 
quid pro quo that will do nothing but encourage terrorists 
around the world to seek other hostages to make similar deals.
    Our President has done a great disservice to those who 
defend us, as well as to the people of the United States. He's 
put us at risk.
    Mr. Poe. The gentleman yields back his time. The Chair 
recognizes the gentleman from South Carolina, Mr. Wilson, for 1 
minute.
    Mr. Wilson. Thank you, Mr. Chairman. And, Mr. and Mrs. 
Andrews, thank you so much for your family's service. 
Specialist Full, thank you for your service. It's very personal 
to me. My two older sons served in Iraq, my third son served in 
Egypt, and my fourth son just returned from his service in 
Afghanistan, so I truly have a great appreciation of the 
commitment of military families, service members, or veterans. 
And the President has disrespected all of them by releasing 
five Taliban. The response was mass murder in Pakistan. There 
were two attacks on the airport there in Karachi, dozens of 
people were murdered. Also, Shiite pilgrims were murdered just 
last week. The response is very, very clear.
    And, in fact, we found out that one of the Taliban leaders 
said how much he appreciated the release, the pardon of one of 
the particular Taliban Five who is the equivalent of 10,000 
Taliban fighters. This is serious. The President has put the 
American people at risk. Thank you for being here.
    Mr. Poe. Does any other member wish to be recognized for 
opening statement? Seeing none, the Chair will go into the 
statements of the witnesses. Without objection, all the 
witnesses' prepared statements will be made part of the record. 
I ask that each witness please keep your presentation to no 
more than 5 minutes. When you see the red light come on that 
means stop.
    You're welcome to summarize your prepared statements if you 
need to. Witnesses are also advised that, as usual, testimony 
provided to the subcommittee is subject to the False Statements 
Act under 18 USC Section 1001; and, thus, any deliberate 
misrepresentation or concealment of material information is 
punishable by law.
    I'll introduce each of the witnesses, and then we'll allow 
them to testify in the order that they are seated. Mr. Andy 
Andrews is the father of the fallen Second Lieutenant Darryn 
Andrews who was reportedly killed while on mission to look for 
Sergeant Bergdahl. He is joined by his wife, Sandra Andrews, 
who is seated directly behind him, and she is wearing the dog 
tags of her son.
    Mr. Andrews, I know your time is limited because you have 
to catch a plane to go back to Houston for chemotherapy, and we 
appreciate you and your wife making the trip all the way to 
Washington, and wish you both a quick recovery.
    Specialist Cody Full was a Specialist in Sergeant 
Bergdahl's squad at the time he disappeared, and they were 
previously roommates together.
    Mr. Mike Waltz is the Senior National Security Fellow at 
the New America Foundation. Mr. Waltz commanded a Special 
Forces Company in eastern Afghanistan at the time Sergeant 
Bergdahl was captured. He was previously a Senior Defense 
Department Coordinator for Afghanistan and Vice President 
Cheney's Counterterrorism Advisor.
    And then Dr. Mark Davidson is the Senior Advisor at the 
Truman National Security Project, Adjunct Professor at George 
Washington University. He previously advised both General 
Stanley McChrystal and General David Petraeus, and has served 
on the staff of the Senate Armed Services Committee.
    We will start with Mr. Andrews. You have 5 minutes, sir. 
You will need to turn on the microphone. It's that little 
button in front of you.

   STATEMENT OF MR. ANDY ANDREWS, FATHER OF DECEASED SECOND 
                LIEUTENANT, USA, DARRYN ANDREWS

    Mr. Andrews. Thank you, Mr. Chairman, ranking members and 
members of the subcommittee. I am Andy Andrews, father of 
Second Lieutenant Darryn Deen Andrews who was killed in 
Afghanistan during the process for searching for Bowe Bergdahl.
    Darryn's first tour in Afghanistan was in 2004 as an 
enlisted soldier. He developed a medical condition that 
required surgery so he was sent to Germany, and then back to 
the States. He applied to the Green to Gold program and was 
accepted into it. He enrolled in 2006 at Texas State University 
in San Marcos, Texas to complete his Master's degree while 
enrolled in ROTC.
    He was commissioned to Second Lieutenant of the U.S. Army. 
He was stationed at Fort Benning, Georgia, then briefly at Fort 
Richardson, Alaska before being sent to Afghanistan in April 
2009.
    We were able to talk to Darryn by telephone whenever he got 
the chance to call. We conversed with him around July 1st or 
3rd. His birthday is on the 3rd. He told us they had been out 
looking for the last 24 hours for this soldier who had walked 
away. I asked if the soldier had been captured while on guard 
duty. Darryn said he didn't think so because all of his gear 
was found neatly stacked, so he thought the soldier had just 
left. The soldier's name was not mentioned, so all we knew was 
that a soldier had left.
    Darryn could not tell us where he was, or what they were 
doing. When we would talk to him in the next few months, we 
would occasionally ask if they had found the soldier, and he 
would say no, they were still looking. No name or specifics 
were ever mentioned.
    Darryn was killed on September 4th, 2009 which 
coincidentally, was our 41st wedding anniversary. Second 
Lieutenant Darryn Deen Andrews distinguished himself by 
extraordinary heroism in combat as the Platoon Leader of the 
3rd Platoon Blackfoot Company, First Battalion, 501st Infantry 
Airborne in support of Operation Enduring Freedom. Darryn's 
wife and son, his twin brother Jarrett and his family were in 
Cameron, Texas to celebrate Daylan's, which is Darryn's son, 
second birthday on September 7th. My wife and I had been on the 
coast to celebrate our anniversary. We had just pulled into our 
driveway and started to unload the truck. Jarrett had come over 
and told us that Darryn's wife's neighbor had called to tell 
her that the Army was looking for her. This was approximately 
15:30 hours. We told him that we would call her and tell her to 
be back at the house at 18:30 hours. I unhooked the boat, and 
we all went to New Braunfels.
    The Army notification team arrived at approximately 19:00 
hours. The Sergeant told us that Darryn had been killed on 
September 4th, and he would probably still be alive if he had 
remained in the truck like most officers would have instead of 
getting out of the truck to help get it out of the hole the IED 
had made. We were told he had saved soldiers lives when he 
spotted enemy combatant fire, an RPG, shoved others out of the 
way and alerted other soldiers. Darryn took a direct hit from 
the RPG.
    When we attended a memorial service for Darryn and other 
soldiers killed in Afghanistan, Lieutenant Colonel Baker's wife 
hosted a luncheon for us. At that luncheon, Captain Silvino 
Silvino Sandoval told us exactly how Darryn was killed. He 
stated they were on a mission to locate high interest Taliban 
and were passing through a village. The road had walls on each 
side and room to maneuver was limited. The lead vehicle hit an 
IED and was disabled, because of the walls were on each side 
around the vehicle was not possible. They got out to assess the 
damage. Darryn had Staff Sergeant Zavodny and PFC Martinec with 
him. Darryn saw the enemy combatant step from behind the wall 
and fire an RPG. Darryn yelled RPG and pushed Zavodny and 
Martinec to the ground, and then Darryn took a direct hit from 
the RPG. Staff Sergeant Zavodny received some damage to his 
ears, and Private Martinec survived the airlift to Germany, but 
died a few days later.
    On February 12th, 2010, Second Lieutenant Darryn Deen 
Andrews was posthumously awarded the Silver Star for his heroic 
actions. At no time during this was it mentioned that he was 
searching for Bergdahl, only searching for a high interest 
Taliban.
    When Bergdahl was portrayed on television as serving with 
honor and distinction by State by Susan Rice. The soldiers who 
were there contacted my wife to make sure we knew, we 
understood what a hero was, and was not, and Bergdahl's walking 
away was a contributing factor in Darryn's death.
    I saw the Lieutenant Colonel on the television state, ``If 
you want to know what happened ask the enlisted people, don't 
ask the officers because the enlisted people can tell you 
exactly what happened.'' We received testimony from six 
different soldiers, the same testimony that Bergdahl walked 
away and was not captured, and that Darryn was killed while 
searching for him. Thank you.
    [The prepared statement of Mr. Andrews follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Poe. Thank you, Mr. Andrews. The committee now will 
hear from Specialist Full.

  STATEMENT OF SPC. CODY FULL, USA, RETIRED (SERVED WITH SGT. 
         BERGDAHL IN BLACKFOOT COMPANY, SECOND PLATOON)

    Mr. Full. Chairman, ranking members and members of the 
subcommittee, thank you for allowing me to share my firsthand 
account of my experiences serving in Afghanistan.
    One of the first things I noticed about Bergdahl when he 
arrived in our unit, he was always asking questions. He seemed 
focused, he was well read, intelligent, blended in as he needed 
to be, always at the right place, right time, right uniform.
    In November I got deployed to the National Training Center 
to train for an upcoming deployment to Afghanistan. During this 
time, myself, or anybody I've spoken with can't remember 
Bergdahl walking off the base and abandoning his team. This 
story seems to be repeated over and over again. I have no idea 
why. We would have at least heard about that or known it was 
happening. It did not happen.
    In March 2009, our brigade deployed to Afghanistan but 
Bergdahl did not make the deployment with us. He had gotten a 
staph infection and would not make it until May 2009.
    Soon after arriving in Afghanistan, we were tasked with 
building an overview called Observation Post MEST. While there 
we were on the front lines digging holes for bunkers, filling 
sandbags, driving T posts, hanging wire, all grilling tasks in 
themselves in 100 degree weather, go ahead and add your 
equipment, it's very tough. We were told we could take some 
items of clothing off to keep us from having a heat stroke. 
Security was always set in place. Nobody was ever in jeopardy. 
This has been used against us saying that we were a band of 
outlaws or misfits, not the case. Leaders were reprimanded for 
that by somebody higher up. We in the platoon felt that it was 
without merit.
    After arriving in Afghanistan, it didn't take long for 
Bergdahl to start voicing his disagreements with the way our 
missions were being led. He didn't understand why we were doing 
more humanitarian missions instead of hunting the Taliban. Our 
Team Leader and Squad Leader both told Bergdahl that those were 
our orders and we will follow them.
    Before we went out to OP MEST the day of June 30, 2009, 
about a week before we were told this is the last time we would 
ever go out to this observation post. During this time, 
Bergdahl mailed his items home or to a family friend. He mailed 
them back to the States. We didn't know this until after we got 
back, after he deserted, and we found that his equipment had 
been mailed home.
    On the night of June 30th, excuse me, the morning of June 
30th, 100 percent accountability was held around 6 a.m. 
Everyone was given the proper number of men and equipment 
except for 3rd Squad Alpha Team, which was my team, the squad 
that Bergdahl was in. Platoon members immediately started 
searching the tiny observation post for missing items. We 
looked under cots, the latrine, under trucks, everywhere we 
could think. Bergdahl was nowhere to be found. In a single man 
tent Bergdahl been sleeping in we found his gun, ammo and plate 
carrier.
    Patrols were immediately kicked out to the surrounding area 
to look for Bergdahl. According to some small children we spoke 
to they had seen a single American matching Bergdahl's 
description crawling low on the ground through the reeds 
earlier that day on their way to school. The story was also 
confirmed by a cleric and a teacher that saw the same thing.
    A few days later we heard from our interpreter that the 
American that was walking around in the Afghan village looking 
for somebody that spoke English and water also wanted to seek 
out the Taliban. That was from the interpreter speaking it 
directly to us.
    After Bergdahl was found that he walked off, DUSTWAN was 
called up that his duty status and whereabouts unknown. Every 
asset in Afghanistan was pushed to this effort. After Bergdahl 
shipping his items home, local accounts of seeing him crawling 
and asking for the Taliban, the false stories he emailed his 
father and odd questions all helped us connect the dots later, 
but at the time of the unfolding of the events it seemed like 
normal off-the-wall jargon common when the infantry is 
deployed.
    The facts tell me that Bergdahl's desertion was 
premeditated. He had a plan and was trying to justify it in his 
head. How long he had planned this I do not know, but it is 
clear to me that he had a plan and executed it. Countless 
people looked for him when he went missing putting their own 
lives on the line for his.
    Combat is difficult. The only thing you can count on in 
combat is the commitment of your fellow Americans. Knowing that 
someone you needed to trust deserted you in war and did so of 
his own free will is the ultimate betrayal.
    Now that Bergdahl is back in the United States an 
investigation needs to take place as to why he left us. All the 
documents, including the intelligence known on Bergdahl now 
need to come to the public view. Americans need to also see the 
original investigation on Bergdahl's desertion. You should not 
be able to desert your fellow Americans without consequences. 
Bowe Bergdahl should not be characterized as having served with 
honor and distinction. Any armed service member who violates 
UCMJ is punished. Bergdahl should not be an exception. If 
Bergdahl hadn't deserted us, he would never been held in 
captivity.
    In my opinion, Bowe Bergdahl needs to be charged with 
desertion, missing movement, disrespect for a superior 
commissioned officer, insubordinate conduct toward non-
commissioned officer, failure to obey order or regulation, 
misbehavior before the enemy, and misconduct as prisoner. Thank 
you.
    [The prepared statement of Mr. Full follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                        ________

    Mr. Poe. Thank you, Mr. Full. Mr. Waltz, your testimony for 
5 minutes, please.

 STATEMENT OF MR. MIKE WALTZ, SENIOR NATIONAL SECURITY FELLOW, 
NEW AMERICA FOUNDATION (COMMANDED A SPECIAL FORCES' COMPANY IN 
                  EASTERN AFGHANISTAN IN 2009)

    Mr. Waltz. Mr. Chairman, Madam Chairman, ranking members, 
thank you for holding this hearing today on a subject of vital 
national importance.
    I, too, want to take just a moment to pay tribute to the 
family members of the thousands who served their country in 
this conflict, particularly the Andrews family that are here 
with us today. At the end of the day, we volunteered, we 
volunteered to go but the families have to deal with the 
consequences of our service.
    On June 30th, 2009, I commanded a U.S. Army Special Forces 
Company with responsibility for operations in Afghanistan, 
particularly Paktika Province where then Private Bergdahl went 
missing. That evening two of my special forces teams boarded 
helicopters on a mission to search an Afghan compound where we 
had indication that Bergdahl may be held. This marked the 
beginning of several weeks worth of missions into some of the 
most hostile areas of Afghanistan and the Pakistan border to 
find him.
    Within days we received orders to halt all other ongoing 
missions and initiatives; notably, including preparations for 
the 2009 Afghan National Elections. We were ordered to devote 
all resources and energy to the search for Bergdahl. It soon 
became apparent, however, that the Taliban knew we were 
conducting an all-out search for him and they began feeding 
false information to our informant network in order to lure our 
forces into a trap.
    On several occasions, my men were lured into ambushes, 
including an Afghan home rigged with explosives, a car bomb 
that was primed to explode, and other types of deadly traps. 
Fortunately, the bombs failed to explode in those situations, 
but they were too close for comfort. Other soldiers, as we 
know, were not so fortunate.
    All of us commonly understood at the time that Bergdahl had 
walked off his post after a guard shift into a local Afghan 
village. We knew, though, that we had to do whatever it took to 
find him, and that was fine. But I have to tell you, all of my 
men, me included, were absolutely furious and resentful, 
frankly, that a fellow American soldier had put us into this 
position. It violated the most fundamental and basic ethos of 
being a soldier and a soldier's creed.
    I'll leave further speculation regarding his state of mind 
of his motives to my fellow witnesses who knew him personally, 
but I am confident in saying Sergeant Bergdahl endangered the 
lives of thousands of men and women sent to search for him. He 
diverted scarce and valuable resources such as predator drones, 
helicopters, IED clearing teams from other units that 
desperately needed those assets.
    Wittingly or unwittingly, he handed our enemies a 
significant propaganda tool that they repeatedly used in videos 
to denounce the United States and recruit for their cause.
    And, finally, we all know that he handed the Taliban's 
leadership a strategic bargaining tool that they effectively 
used to free five of their most senior leaders, what I call the 
Taliban war cabinet.
    I just want to take a moment, I think it's important to put 
the release of these men in the broader context of our policy 
toward Afghanistan. As I'm sure you are aware, millions of 
Afghans voted in the runoff election this past Saturday. They 
are in the midst of one of the most sensitive and unprecedented 
political transitions in their history. In my view, there are 
still significant questions whether they will succeed.
    Every Afghan that I've spoken to from civilian society, to 
government officials are stunned that we would release these 
individuals back into their society. We have to keep in mind, 
these men were household names, particularly they're household 
names of the worst kind, particularly the women and minorities 
that were slaughtered at their hands.
    It's the timing, though, of this release that has some of 
these groups particularly perplexed. We spent the last year 
dueling and cajoling President Karzai to sign a long-term 
security agreement with us, the Bilateral Security Agreement. 
Both of the final candidates to replace Karzai have indicated 
they would sign it, yet weeks before the Presidential election, 
the administration announces a full withdrawal of all U.S. 
forces by the end of '16, essentially a zero option, and then 
we have restocked the Taliban war cabinet. So, even if the 
Government of Qatar is able to prevent these men from returning 
to their own ways, what's going to happen a year from now? You 
know, a year in that part of the world is a blink of an eye to 
people who have long memories and a long view toward their 
objectives.
    You know, one can understand the confusion and 
transparency, and trepidation, excuse me, of even the most 
ardent supporters of a strong Afghan-U.S. relationship, so 
where does that leave our policy going forward? In my view, 
it's one of hope and assumption. We're assuming the Afghan army 
can hold its ground, we're assuming there will be no ethnic 
violence as part of the transition. We're assuming 
reconciliation talks will resume in our favor. And, most 
importantly, we're assuming that al-Qaeda can't reconstitute 
like it has in Iraq and as in Syria.
    And I would just leave you with a word of caution. If that 
scares us, and what's going on right now with ISIS, and Iraq, 
and Syria should, what's going to happen when we're dealing 
with a nuclear arsenal in Pakistan? I have other views, but I'm 
happy to answer a question on AUMF and on future GITMO release, 
but I am out of time, and with that I will stop, sir.
    [The prepared statement of Mr. Waltz follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Poe. Thank you, Mr. Waltz. Dr. Jacobson, 5 minutes, 
please.

   STATEMENT OF MARK JACOBSON, PH.D., SENIOR ADVISOR, TRUMAN 
                   NATIONAL SECURITY PROJECT

    Mr. Jacobson. Mr. Chairman, Madam Chairman, Ranking Members 
Sherman and Deutch, and distinguished members of the joint 
subcommittee, thank you for the opportunity to appear before 
you today.
    I should first note that I, too, extend my gratitude to the 
Andrews family for the sacrifice they have made. I would like 
to have known their son. From what I have read and from what I 
have heard, he's a true hero.
    I'm also honored to be sitting beside my friend, Mike 
Waltz, who is also a true patriot and a hero, and has served 
his nation bravely in Afghanistan. And thank you, Specialist 
Full, for your service, as well.
    As someone who served in the Pentagon on September 11th, 
2001, the threat posed by terrorism is not lost on me. While I 
had made the decision years before to devote myself to my 
nation, that day changed all of our lives forever. As a result, 
I spent several years in Afghanistan as a Naval Intelligence 
Officer, and later as a civilian advisor.
    I am acutely aware of the danger that remains today in 
Afghanistan. For the four of us at the table, this conflict is 
personal and we all feel the impact of this war in a way most 
Americans do not.
    One of the greatest commitments an American can make to 
their nation is to put on a uniform and take an oath to support 
and defend the Constitution of the United States. By taking 
this oath, these men and women make the selfless decision to 
put their country first. They do so knowing that they may be 
one day called to give that last full measure of devotion, to 
give their lives for their comrades, their families, and their 
nation. In exchange for that, the military makes its own 
promise, a promise to keep faith with those who have been 
captured. The commitment is simple, leave no man or woman 
behind, no exceptions. This commitment is unequivocal 
regardless of the circumstances of capture. This is something 
we owe to all those who have served, do serve, and will serve.
    In short, this is why I believe that securing Sergeant 
Bergdahl's release was absolutely the right thing to do, and 
was worth the potential risks. Indeed, if Bergdahl did act 
improperly, then it is even more important that he brought home 
and held accountable in the military system for his actions.
    While there is always risk when releasing detainees, those 
risks must be seen within a broader context. Indeed, the 
potential risks for the administration are no greater today 
than they were during the previous administration when 532 
detainees were released from Guantanamo Bay. But there are 
reasons why given the situation today we should temper our 
concerns.
    First, as outlined by Secretary of Defense Hagel, the 
Qatari government has committed to specific risk mitigation 
measures, including travel restrictions, monitoring, and other 
limitations. Second, there is not a consensus that these five 
individuals will inevitably return to the battlefield. And, if 
they do, the Afghanistan of 2014 is simply not the Afghanistan 
of 2001.
    As Mike Waltz mentioned, the Afghan people have just gone 
through elections, 14 million ballots cast in two separate 
elections in open defiance of the Taliban. The strength of the 
insurgency will not regenerate because of the presence of five 
more individuals on the battlefield, especially since they've 
been off the battlefield for over a decade.
    Some have questioned whether the recent prisoner exchange 
created new precedents that will endanger the lives of U.S. 
personnel. While the exchange of Sergeant Bergdahl took place 
before the end of the war in Afghanistan, in the past we have 
conducted prisoner exchanges before the end of hostilities, 
World War II and the Korean War, for example.
    Likewise, the threat of kidnaping U.S. members of the armed 
forces by terrorists and insurgents has long been the case in 
Afghanistan. It was my own number one threat while I served in 
uniform. There is no reason to think that this calculus will be 
changed by the recent exchange.
    Finally, the United States has been negotiating with the 
Taliban for some time now, a recognition that the war in 
Afghanistan cannot end without a political settlement. I 
understand the disappointment we feel in the stories coming out 
about Sergeant Bowe Bergdahl, and I understand the anger felt 
by some of his comrades who feel that he deliberately left his 
post. If I were them, I might feel the same way, but the truth 
is we do not yet know the whole truth.
    In our nation of laws, the presumption of innocence is 
sacrosanct. People are innocent until proven guilty; thus, 
before passing judgment there must a thorough investigation. It 
must be allowed to take place without politics or partisanship. 
Without that we are unlikely to ever have accountability.
    We may not like it, but in the end foreign affairs and 
national security policy are often about juggling bad options 
and finding the least worst approach. There are rarely simple 
solutions. The decision to exchange Sergeant Bergdahl may be 
imperfect, but it was the right decision. We never leave our 
soldiers behind.
    Thank you again, Mr. Chairman, Madam Chairwoman, for 
inviting me to testify. I am pleased to stand ready for your 
questions.
    [The prepared statement of Mr. Jacobson follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Poe. Thank all of you all for your testimony. We'll now 
go to questions by the individual members. I recognize myself 
for 5 minutes.
    There are several issues that have come to light during 
this hearing, the first one is Sergeant Bergdahl, why did he 
leave his post, and what's going to happen to him in the 
future? The second would be those that looked for him, what 
happened to some of them, and what did the government, the U.S. 
Army tell those who lost sons looking for him?
    There is the issue of do we negotiate with terrorists or do 
we not negotiate with terrorists? What is the foreign policy of 
the United States? Maybe one of you could come up with the 
answer to that question.
    And then there's the Taliban Five, or as Mr. Waltz has 
called them, the Taliban war cabinet, I believe is what the 
term was. Who are the folks, and why were they in GITMO in the 
first place, and what are they going to do in the future? So, 
those are the four issues that I want to address.
    Let's start with you, Mr. Andrews. What did the Army tell 
you about the way your son was killed?
    Mr. Andrews. They said that they were searching for a high-
ranking Taliban, and had gone to this bazaar to search for him. 
And because of--this was actually in the Silver Star 
commendation, but because they had so many problems with IEDs 
on the road, that instead of coming in from the south, they 
sent them around to come in from the north.
    Mr. Poe. Excuse me for interrupting, but they told you they 
were--your son was looking for a Taliban commander of some 
type?
    Mr. Andrews. Bergdahl was never mentioned.
    Mr. Poe. All right. When did you learn that that was not 
true?
    Mr. Andrews. Last Saturday.
    Mr. Poe. Were you ever instructed, or asked, or told by the 
U.S. Army to sign a confidentiality agreement not to tell 
anybody about what you were told by the Army?
    Mr. Andrews. I was not, but the soldiers who contacted my 
wife were asked to sign a non-disclosure agreement, they said.
    Mr. Poe. All right. Sergeant Full, you obviously are very 
passionate about your testimony. Were members of the United 
States military killed looking for Bergdahl?
    Mr. Full. I don't know. What I do know is we were told that 
we wouldn't be in certain areas before he went and deserted us. 
So, if he wouldn't have deserted us we, probably--those people 
wouldn't have been in those places where they were killed on 
that day. They would have been somewhere else, they would have 
been in a different section of Afghanistan.
    Mr. Poe. Mr. Waltz, do you want to weigh in on that 
specific question?
    Mr. Waltz. Mr. Chairman, I can't draw, and I don't know of 
anyone that can draw a direct line, but I can tell you to the 
best of my knowledge every unit, particularly in Paktika 
Province where Specialist Full was located, but also mine, and 
Khost, and the Zorani Provinces in Ghazni were dedicated to 
that search. If someone was killed during that specific amount 
of time, unless they tripped and hit their head on the way to 
the mess hall, they were out looking for Sergeant Bergdahl.
    Mr. Poe. The Taliban war cabinet, Mr. Waltz, you indicated 
a lot of concern about who these guys are. One of them, even 
the United Nations has indicted one of them for war crimes. Who 
are these people? Americans are really not sure, they don't 
know who these type folks are.
    Mr. Waltz. Well, Mr. Chairman, we have--we've released now 
the Taliban's Deputy Minister of Defense, a senior operative in 
their intelligence service that was responsible for migrating 
al-Qaeda intelligence tactics over the Taliban. We have 
released the former Taliban governor of Herat, which is the 
westernmost province on the border with Iran and was 
responsible for liaising with the Iranian Government on behalf 
of the Taliban. And we released gentlemen that were wanted for 
war crimes for literally massacring thousands of the ethnic 
minority that are Shia. We look at the sectarian violence going 
on across the Middle East, I wouldn't call that necessarily a 
wise move.
    These gentlemen--the question I can't get anyone to ask 
that was involved with this, and I've talked to a number, is 
why did the Taliban pick those five? Out of all of the spectrum 
of folks they could have chosen out of Guantanamo, why did we 
give them essentially their top five draft picks?
    Mr. Poe. And one follow-up question on that. Understanding 
the agreement, Qatar is supposed to supervise them, but the 
supervision or house arrest, if you will, is for just 1 year. 
Is that your understanding of the deal that was made?
    Mr. Waltz. That's my understanding, Mr. Chairman. And, 
frankly, I think some of the details of what they can or can't 
do in the next year are almost moot. The fact is it's only for 
a year.
    Mr. Poe. Last question. Dr. Jacobson, we've heard this 
through the media. The Lovelady family in Texas was told that 
the United States doesn't negotiate with terrorists. Their son 
was later killed in the Algerian attack. Does the United States 
have a policy that we don't negotiate with terrorists, or we 
don't have a policy?
    Mr. Jacobson. What I can tell you is that I don't believe 
that the Bergdahl exchange is an example of negotiating with 
terrorists. I believe it is an exchange of prisoners, something 
that we've seen historically toward the end of war.
    Mr. Poe. Thank you very much. The Chair will now recognize 
the ranking member, the gentleman from California, Mr. Sherman, 
for 5 minutes.
    Mr. Sherman. Let me first put to rest this absurd argument 
that these five Taliban prisoners would have to have been 
released under the laws of war when we concluded combat 
operations in 2014, or when we were down to a couple of hundred 
trainers in 2016. I'm pleased to note for our record that just 
last week the General Counsel of the Department of Defense, 
Steve Preston, testified there that we would continue to have a 
legal right to hold Taliban prisoners, not just with the 
conclusion of war in Afghanistan, but until the broader battle 
defined under the AUMF was concluded.
    We're going to continue to have American trainers in 
Afghanistan for many, many years. The Taliban soldiers will try 
to kill those trainers. The laws of war do not require us to 
augment the forces trying to wage war against our trainers or 
against the Afghan Government. We are at war with the Taliban 
for as long as they are allied with terrorist organizations 
waging war against the United States, or as long as the Taliban 
is waging war against the government in Afghanistan.
    Mr. Jacobson, I've got a number of questions. I'm hoping 
you'll be able to answer them very succinctly in some cases 
with a yes or no. We're told that some of these five released 
are ``wanted by the U.N. for war crimes.'' Does the U.N. have a 
process by which anyone can be wanted by the U.N. for war 
crimes? Have they ever indicted anybody? Do they have a process 
to indict anybody?
    Mr. Jacobson. I'm unaware of that, and I understand that 
there is some debate over how that came in some of the DoD 
documents, and where that came from.
    Mr. Sherman. There are many urban legends in foreign 
policy. Are any of these five under indictment from the 
International Criminal Court or any other recognized body that 
focuses on war crimes?
    Mr. Jacobson. You would have to ask the Department of 
State, or you'd have to ask the International----
    Mr. Sherman. Are you aware----
    Mr. Jacobson. I'm not aware, no.
    Mr. Sherman. And I did ask you to research this, didn't I?
    Mr. Jacobson. What I think is important, Congressman, is 
understanding, again, this context. These individuals are 
dangerous but they are simply not going back to that same 
battlefield from which they were captured.
    Mr. Sherman. I've got very limited time. I want to go on to 
something else. The question arises whether continued patrols 
should have been made to try to retrieve Sergeant Bergdahl. I 
should note for the record here that Senators Toomey, Burr, and 
Senate Republican Leader Mitch McConnell, along with eight 
Republican members of the House, at a time when we already knew 
the mysterious circumstances of Bergdahl's departure, and that 
this was widely published put forward a resolution stating that 
``abandoning the search efforts for members of the armed forces 
who are missing or captured is unacceptable.'' At the time, 
there was only one member of our armed services missing or 
captured, and these fine Members of Congress, House, and Senate 
knew full well that those additional patrols that they were 
demanding would be dangerous for our armed forces.
    I should also point out that as to whether this deal was a 
good deal, it was Senator McCain who knew exactly the 
parameters of this deal, except for the details, that it was 
these five for one named Bergdahl because the possible outlines 
of this deal were published on the front page of the Washington 
Post on February 17th, and in that context on February 18th 
Senator McCain said he was for the deal if the details were 
correct. Now, maybe the details don't meet his specifications, 
but it is, indeed, a close call whether this five for one deal 
was or was not in the national security interest of the United 
States.
    We are told that it is somehow news that we've revealed to 
the Taliban that we care about our prisoners. The only other 
democracy to have soldiers captured in the Middle East to my 
knowledge is Israel. Dr. Jacobson, what were the Israelis 
willing to do to get back Sergeant Major Gilad Shalit?
    Mr. Jacobson. I don't want to mistake the details of that 
particular case, but what I am aware of is at times the 
Israelis have exchanged over 1,000 prisoners for one 
individual, and also they've exchanged prisoners for the 
remains of their fallen.
    Mr. Sherman. So, anyone observing the practices of 
democracies doing battle in the Middle East would reach the 
conclusion that if you could capture somebody, democracies have 
a particular need to try to get that person back and are 
willing to make extraordinary concessions, as you pointed out, 
sometimes 1,000 to 1.
    Mr. Jacobson. I don't think anyone would disagree with the 
point that our democracy has shown that it cares a great deal 
about our men and women who have been left behind and captured.
    Mr. Sherman. And, finally, as to these five released 
Taliban, their battlefield experience is from 2001. Were the 
tactics that they're familiar with near as good as the tactics 
used by the Taliban today?
    Mr. Jacobson. Unfortunately, in my opinion the insurgents 
in Afghanistan have evolved tremendously since that period in 
2001 in terms of their tactics.
    Mr. Poe. Mr. Sherman's time has expired. The Chair 
recognizes the gentleman from Illinois, Mr. Kinzinger, for 5 
minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman. And, again, thank 
you all for being here. I just, you know, again we're going to 
the idea of let's point out everybody that ever said anything 
about releasing this one person and, therefore, the 
administration made the right decision because others said it.
    I'd be remiss if I didn't make a bigger point here on the 
Afghanistan issue, which is the President has announced that in 
January 2017, all American troops will be out of Afghanistan. 
And, you know, that's fine for him to make that decision, but I 
would just point people to what's happening in Iraq today as a 
precursor of what's going to happen in Afghanistan if that 
occurs. But, again, we're here for the specific issues. And, 
again, I want to thank all of you for being here.
    Let me ask a question to the Specialist. What do you 
think--when you were in training and you heard this idea of 
your country will never leave you behind, and it's something 
that as members of the armed forces we take very seriously, and 
something that we take a great deal of comfort in. When you 
heard that, what is your understanding of your country will 
never leave you behind mean? What does that guarantee in your 
mind, and is that an idea that they will release five or 1,000 
terrorists to get you back? What is it that that meant to you, 
Specialist?
    Mr.Full. Well, what it means to me is, you know, I put my 
nation first when I volunteered to serve the United States Army 
in the time of war. So, by putting them first, they would put 
me first to a certain extent. But I keep hearing, you know, we 
shall leave no man behind because we can trade with another 
nation, and it's done in all these previous wars, but Taliban 
is not a nation. They're a terrorist organization, so is the 
Haqqani Network who helped Bowe Bergdahl. From what I gathered 
from it, it was always leave no honorable man behind, not leave 
no man behind.
    Mr. Kinzinger. And do you believe--so, you may be in touch 
with folks that are still in Afghanistan or, obviously, people 
you served with. And I'll ask the four of you, and you can 
expand on this, Specialist, because we want--the other three 
I'll ask to keep fairly short.
    Do you believe that the release of Bergdahl from the 
Taliban and the subsequent video they put out, obviously, has 
to have some meaning showing, i.e., the American helicopter 
leaving and, in essence, withdrawing from the area. Do you 
believe that was a propaganda victory or a propaganda defeat 
for the Taliban, this exchange? And what do you think that does 
to the heart of the soldier that saw this happen, Specialist?
    Mr. Full. I think it's a propaganda victory for the Taliban 
on account of now we're kind of a direct--only traded one for 
five. It's simple math.
    Mr. Kinzinger. And do you sense that this will help or hurt 
the Taliban's recruiting effort to recruit people to kill 
Americans, and to kill Afghans who have put their lives on the 
line to build a strong and stable country?
    Mr. Full. I would assume it would help them, and not hurt 
them.
    Mr. Kinzinger. Mr. Andrews, what's your thought on that 
question?
    Mr. Andrews. From what I can see, it is a victory 
propaganda-wise for the Taliban. They won, you know, it is the 
way it looks like when you see the footage, so I think it 
benefitted the Taliban greatly. I think it also put soldiers 
more in danger of being captured because the rewards are more 
for getting one and trading them rather than----
    Mr. Kinzinger. Thank you. Mr. Waltz, and Mr. Jacobson, 
please, very quickly if you guys could just respond either yes 
or no, basically.
    Mr. Waltz. Just very quickly, Mullah Omar, the leader of 
the Taliban, considered it a victory and stated so as soon as 
he received his five top commanders back.
    Mr. Jacobson. I don't trust Mullah Omar, so I would say it 
pales by comparison to the video that could have taken place 
with one of our soldiers being beheaded like we saw with Nick 
Berg or with Daniel Pearl.
    Mr. Kinzinger. Well, that's an interesting twist. So, your 
twist is you don't trust this guy; therefore, him saying that 
it was a victory for his organization is probably a lie. And, I 
mean, that's kind of surprising to me, because I think if it 
was not a victory for them, they probably wouldn't have said 
anything. They released a video and they probably would have 
sat back and been very quiet about it, so that's an interesting 
spin. You have a right to your opinion, but I think that was an 
interesting take that the other three do not share.
    And do you believe, Specialist, do you believe he 
intentionally left his post? And do you have a sense as to why 
he might have intentionally left?
    Mr. Full. Yes, I do believe he left without a doubt. We 
knew within 1 hour, 2 hours that he had deserted. I don't know 
why he did it. He, obviously, had a plan. It was premeditated. 
Why would you ship all your items home in the middle of a 
deployment? So, with the emails and other questions he asked 
us, connecting the dots later, yes, he deserted without a 
doubt.
    Mr. Kinzinger. So, I get--and thank you. And while I get, 
you know, some folks saying well, we need to wait to have this 
adjudicated in courts, and I understand the idea of that. The 
reality is, we know that Sergeant Bergdahl left his post. We 
know it.
    Now, was he in full mental state? I guess that can be 
determined, but there are a lot of people that have had mental 
challenges with dealing with what happened in Afghanistan and 
Iraq that still do not leave their brothers and sisters behind 
in combat. So, with that, Mr. Chairman, I thank the witnesses, 
and I yield back.
    Mr. Poe. The gentleman yields back. The Chair recognizes 
the gentleman from Florida, Mr. Deutch, for 5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. Waltz, Sergeant Bergdahl was designated missing and 
captured, right, at the time?
    Mr. Waltz. My understanding, sir, is he was designated 
missing and a prisoner of war, and that's why he was since 
promoted in absentia. That confers a number of benefits.
    Mr. Deutch. And, Dr. Jacobson, how is that determination 
made?
    Mr. Jacobson. Well, that determination was made by the 
Department of Defense. I don't know the specific details, what 
they would have to go through, but I would agree with--my 
understanding is the same as Mike's.
    Mr. Deutch. For both of you, what process--I understand, as 
I said in my opening comments, and now it has been confirmed by 
some of the comments by my colleagues, some of them know what 
happened. They have reached a conclusion. It was obvious, we're 
told. But what does the military actually do to reach the same 
conclusion? What steps does the military take in determining 
whether someone who is determined to be missing is actually--
has actually deserted? Mr. Waltz?
    Mr. Waltz. Congressman, if I--I think the key point here is 
that what the military has done to date has been initial and, 
therefore, incomplete. They have not done a full investigation 
and, therefore, I'm not sure how one would draw a full 
conclusion as to what they think--what we think happened.
    Mr. Deutch. But how do they--do you have any further 
insight? It seems very easy from what a lot of elected 
officials said, it's not that hard to figure out. He's a 
deserter and, apparently, we shouldn't have made this deal. 
Well, what's the military done to reach that same conclusion?
    Mr. Waltz. Sir, my understanding of the deal at the time 
was that a 15-6 or some type of investigation under UCMJ was 
conducted. A number of the folks that were on site were 
interviewed, and the reason that investigation was not closed 
was they needed to interview the subject at hand, who was 
obviously missing.
    Mr. Deutch. And if that investigation continues, what might 
they learn, Dr. Jacobson? What could they learn during that 
investigation?
    Mr. Jacobson. From what I have seen in the press so far, a 
great deal has come out. For example, we have seen information 
come out that perhaps Sergeant Bergdahl tried to escape several 
times, which forced his captors to put him into isolation. 
We've now seen reports about Sergeant Bergdahl's prior 
enlistment in the Coast Guard.
    I walk away with more questions from what I've seen come 
out so far. We've even seen today in testimony, what type of 
person, was Sergeant Bergdahl? So, again, more questions, which 
is exactly why there needs to be a full investigation of the 
circumstances surrounding his capture.
    Mr. Deutch. Dr. Jacobson, Mr. Waltz, what happens if my 
colleagues are wrong? What happens if the military completes 
its investigation and determines any one of a thousand 
different things happened, and that Sergeant Bergdahl was, in 
fact, missing and a prisoner of war, not a deserter? Can you 
speak to that?
    Mr. Jacobson. Let me speak to it. Mike might have some 
other comments, but my concern is if we look back at what 
happened to many of our prisoners of war during the Korean War 
and during the Vietnam War, many were accused of collaboration, 
not acting properly. In fact, Senator McCain was at the 
forefront of insuring that many of those records were sealed 
until proper investigations could be done, because our enemies 
want us to think that certain things happened. And I'm not 
suggesting one way or another that this happened during the 
Bergdahl case, but that's why we have to be careful so we don't 
impugn those who didn't do wrong.
    Mr. Deutch. I have a minute left, let me just cut to the 
chase. If the military conducts its full investigation and 
determines that Sergeant Bergdahl is a deserter, what's the 
penalty for that?
    Mr. Waltz. Sir, in wartime, and there's some debate whether 
this has been officially declared as a war. In wartime, that 
could be punishable up to death. There are various forms of 
UCMJ punishment obviously less than that. But to your point, 
sir, there's been a lot of discussion of rush to judgment, and 
I would postulate at least I would have reacted very 
differently. I know Specialist Full would have reacted very 
differently if this had been handled appropriately in the first 
few days after his release with the accusations of hero and 
served with distinction and what have you.
    Mr. Deutch. Mr. Waltz, I'm grateful for the distinction in 
your approach. In all sincerity, I'm glad you made that 
comment. I would just finish with this last question. As you 
pointed out, there are a whole range of punishments from--under 
the Uniform Code of Military Justice. Is one of those 
punishments subcontracted out to the Taliban to decide how to 
punish someone? I yield back, Mr. Chairman.
    Mr. Poe. You may answer the question yes or no, if you can.
    Mr. Waltz. Mr. Chairman, I'm not sure I understand the 
question.
    Mr. Poe. Okay. The gentleman does yield back his time. The 
Chair will recognize the gentleman from Arkansas, Mr. Cotton, 
for 5 minutes.
    Mr. Cotton. Mr. and Mrs. Andrews, I am deeply sorry for 
your loss. Nothing will bring back your son, Darryn, but 
hopefully the truth, which I'd like to get at in the next 5 
minutes, will help salve the wounds that no doubt are still 
with you.
    For the record, I'd like to corroborate what Specialist 
Full and Mr. Waltz have said that impact our missions across 
Afghanistan. I was in Laughman Province which is part of a 
thing called N2KL, Nuristan and Kunar, through Laughman 
Province. We saw the diversion of air assets to search for 
Private Bergdahl.
    Second, I'd also like to stipulate for the record that if 
there were no doubt that Private Bergdahl had been captured 
heroically on the field of battle trying to save his fellow 
Americans, I would still think trading five senior Taliban 
commanders was a bad idea.
    Likewise, even though all evidence points toward his 
desertion, it would still be the right thing to do to try to 
rescue him as Specialist Full and Lieutenant Andrews did. And, 
of course, he deserves his day in court according to this chain 
of command, or now unlawful command influence of this 
President, or any civilian leaders or general officers in the 
Pentagon.
    Now, Mr. Jacobson, would you trade Khalid Sheik Mohammed 
for Private Bergdahl?
    Mr. Jacobson. Congressman, I mean, that was----
    Mr. Cotton. Reclaiming my time, it's a simple yes or no 
question.
    Mr. Jacobson. I don't think that there are simple yes or no 
questions like that in war.
    Mr. Cotton. Reclaiming my time, I gather by your 
unwillingness to answer the question you realize that you 
cannot answer it. Tony Blinken, the present Senior Deputy 
Security Advisor said that he would not. So, I guess that means 
under those circumstances the President would have been leaving 
Private Bergdahl behind.
    Now, moving to Specialist Full, you say in your statement 
that you are part of Alpha Team. Were you on the same team as 
Private Bergdahl?
    Mr. Full. Same platoon, same squad, same team.
    Mr. Cotton. Okay. So, down to the lowest level, those of 
you don't know, that's a four-man fire team.
    Mr. Full. We were one man short, so it was just----
    Mr. Cotton. Were you his team leader at the time?
    Mr. Full. No, I was not.
    Mr. Cotton. Okay. So, you are among the one or two people 
on the team who had been working most closely with him and seen 
him in action day, after day, after day.
    Mr. Full. Yes.
    Mr. Cotton. Okay. I've heard numerous reports that Private 
Bergdahl sought out and had civilian Afghanistan friends, 
something I saw commonly in Afghanistan and Iraq, soldiers 
engaging in conversation, oftentimes innocent with children, 
maybe dining on base with Afghan security officers. Is that an 
accurate report, that he had these civilian friends in and 
around OP MEST?
    Mr. Full. Yes.
    Mr. Cotton. Okay. You testified, or you stated in your 
testimony a cleric and teacher saw him looking, roaming as to 
the children, and you heard over the radio the interpreter that 
an American was looking for someone in the village who spoke 
English, and wanted to talk to the Taliban. If he had numerous 
civilian Afghan friends, is it curious to you that he would ask 
them where the Taliban is rather than simply hide out with him?
    Mr. Full. I'm not sure I understand the question.
    Mr. Cotton. So, if Private Bergdahl left his post and 
attempted, as you say, to wander across the mountains perhaps 
to India, do you think it's curious that he wouldn't be asking 
his friends in Afghanistan where the Taliban is rather than 
just hanging out in a hideout with his friends?
    Mr. Full. Yes.
    Mr. Cotton. Tactics, techniques and procedures, TTPs, that 
describes how we conduct operations, what is the established 
order for conducting any particular task or operation in the 
Army. Is that correct?
    Mr. Full. Yes.
    Mr. Cotton. In the missions after Private Bergdahl's 
disappearance did it appear that the Afghan enemy had greater 
knowledge of your unit's TTPs, such as where you park after an 
IED, or how you react in ambush?
    Mr. Full. I don't know if they had greater knowledge after 
he did disappear. I don't know if another player moved into the 
area or whatnot, but after he did disappear, yes, the ambushes 
picked up, cover and concealment was used. They hit us hard 
after he left. IEDs were moved in different directions, and 
they were, instead of taking a tire or a front end off a 
vehicle, they were hitting direct hits on the vehicles.
    Mr. Cotton. And that would be consistent with Private 
Bergdahl being held in captivity by the Taliban, Haqqani 
Network and breaking under interrogation and sharing those 
TTPs. Correct?
    Mr. Full. I don't know. I wasn't there while he was held 
under captivity. I don't know what he told them. I wasn't 
there.
    Mr. Cotton. It could also be consistent with the fact that 
he willingly shared those TTPs with the Taliban and Haqqani 
Network. Correct?
    Mr. Full. Like I said, I don't know what he told them, what 
he didn't tell them. I wasn't there.
    Mr. Cotton. When you were conducting missions in the days 
and weeks after his disappearance did any of your NCOs or your 
team leader or company commander raise the possibility that 
Private Bergdahl might be a security risk himself if you were 
to find him on the battlefield?
    Mr. Full. Our main focus at that point was just trying to 
find him and get him back. It didn't matter how, who, or when, 
but that was our main focus from the time he left until about 
2\1/2\ months later, every day trying to find this guy.
    Mr. Cotton. Were you asked to sign a non-disclosure 
agreement as part of your Article 15-6 investigation?
    Mr. Full. I was asked to sign a media gag order. There was 
other people in my platoon that were asked to sign an official 
NDA with, you know, a field grade officer present to witness 
them signing.
    Mr. Cotton. Mr. Waltz----
    Mr. Poe. The gentleman's time has expired. The Chair will 
recognize the gentleman from Rhode Island, Mr. Cicilline, for 5 
minutes.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Mr. Jacobson, obviously we've heard testimony today and 
there have been some reports of some unusual behavior 
attributed to Sergeant Bergdahl. And, obviously, our great 
American soldiers overwhelmingly are able to sustain the 
stresses and difficulties of combat without exhibiting unusual 
behavior that had been described both during this hearing and 
in the media. And is there a system or process in place to 
evaluate the behavior of a soldier to make a determination as 
to whether or not it's related to the combat operations, or 
related to his or her service?
    Mr. Jacobson. Congressman, speaking from my own experience 
there were--the first line of defense when you have a soldier 
who's a problem or not doing things right is his chain of 
command. That would include their NCOs and the officers above 
them. There are also--during my time in Afghanistan there were 
a great--there was a great deal of effort expended to make sure 
that there were preventive mental health clinics and places 
where soldiers could go. I cannot speak to the specifics of any 
of this with regards to Bergdahl, though.
    Mr. Cicilline. But there's a system in place to monitor 
members of the armed forces to insure that we're understanding 
the impact of being in combat and the stresses of their 
service.
    Mr. Jacobson. That's my understanding, especially over the 
last decade.
    Mr. Cicilline. And in addition to that, one of the reasons 
we--there's a process to conduct a hearing and an 
investigation, and a review of those facts to make a 
determination as to whether or not someone has deserted, or 
something else is going on. Is that right?
    Mr. Jacobson. Absolutely.
    Mr. Cicilline. And there is a process that will happen, in 
fact, in this case as it relates to this individual?
    Mr. Jacobson. In fact, the Department of Defense earlier 
this week announced that it will be a Two Star General who will 
be leading the overall investigation. We've heard Army Chief of 
Staff Odierno say that there will a full investigation, and 
that was echoed by the Chairman of the Joints Chief of Staff, 
General Martin Dempsey.
    Mr. Cicilline. So, in addition to that we have this other 
principle about insuring that we leave no soldier behind as 
part of kind of the warrior ethos, as part of the soldier's 
creed. It's a deeply held American belief and practice that we 
leave no soldier behind, and we do everything we can to secure 
the release of any American who's caught in time of war. 
Correct?
    Mr. Jacobson. That is something that I believe in. That is 
something that I think that even if you don't like the 
circumstances of someone being captured you believe it's 
necessary to go and get them, leave no one behind.
    Mr. Cicilline. So, why wouldn't we do this hearing, 
investigation, and all the kinds of things that are going to 
happen now before we secure the release of an American? Isn't 
that what--couldn't we do it that way?
    Mr. Jacobson. I'm not sure I understand your question.
    Mr. Cicilline. My point is, we can't conduct an 
investigation, the kind of investigation that is required and 
that is underway prior to securing the release of the prisoner 
of war in most instances.
    Mr. Jacobson. I think that would be very difficult because 
you want to interview the individual captured. That's why, as I 
said before, there was an initial investigation that was by 
definition incomplete.
    Mr. Cicilline. So, it makes sense then that we do 
everything we can to secure the release of every American 
prisoner of war. And then if, in fact, an investigation proves 
that they have done something improper or engaged in some 
misconduct they will, of course, be required--be punished in 
the appropriate way. And in this case if, in fact, this 
individual turns out to be having deserted under the Military 
Code of Justice he could up to, you said, a death sentence.
    Mr. Jacobson. Yes, I think--now, I understand that death is 
a possible punishment, too. I would note that the last American 
deserter prosecuted, Charles Jenkins, he had left his post on a 
DMZ in Korea, the demilitarized zone in Korea in the '60s. When 
he came back to the United States 2006-2008 time frame he was 
court-martialed, sentenced to 26 days confinement, and then 
given a dishonorable discharge. That's a range, or that comes 
after the investigation and after charges are referred and 
there is a trial.
    Mr. Cicilline. And, Dr. Jacobson, my final question is what 
do you think the impact would be on our American military if 
our men and women did not know that this country was committed 
to securing their release and to undertaking every imaginable 
effort to bring them home?
    Mr. Jacobson. I think, first, that that would shatter the 
bonds of trust between the soldiers and the American people, 
and the chain of command. Secondly, I think that it would be an 
enormous propaganda coup for our enemies when they have these 
people in captivity that we don't care about. It would signal 
in many ways that we no longer are committed to our men and 
women in uniform.
    Mr. Cicilline. Thank you, Dr. Jacobson. I yield back, Mr. 
Chairman.
    Mr. Poe. The gentleman yields back the time. The Chair 
recognizes the gentleman from California, Mr. Cook, Colonel 
Cook, for 5 minutes.
    Mr. Cook. Thank you, Mr. Chairman.
    Mr. Andrews, I know it's tough to be here. As someone who's 
been in combat, the second hardest duty, I know probably the 
hardest duty is to actually go up to the parents or the spouses 
and then to tell them their son or daughter is no longer with 
them. It is very tough what you're going through. You have my 
heartfelt condolences.
    Specialist, if you could bear with me some of the 
questions. I understand that his weapon was left behind?
    Mr. Full. That is correct.
    Mr. Cook. All his ammunition?
    Mr. Full. Ammunition, night vision, his plate carrier.
    Mr. Cook. Night vision device was left behind?
    Mr. Full. Yes, all sensitive items were left behind. A 
couple of days before that he had asked another platoon member 
what would happen if one of his sensitive items went missing, 
would that certain soldier be in trouble? That certain soldier 
responded with yes, so Bergdahl left all his sensitive items.
    Mr. Cook. Did he have access to radio freqs?
    Mr. Full. He would, but he didn't have a radio with him.
    Mr. Cook. No, but just the frequencies themselves, they 
were all pre-programmed into the radio?
    Mr. Full. Yes. Standard procedure when DUSTWAN happens you 
change your radio frequency.
    Mr. Cook. Okay. Any maps or GPS systems at all that went 
with him, or was that all left behind?
    Mr. Full. I don't know if he had a map on him, but GPS 
would be sensitive equipment. He didn't have that.
    Mr. Cook. Okay. I think there's been a lot of talk about 
desertion and everything else. Correct me if I'm wrong, but 
usually in a situation like that desertion is pretty much an 
admin term because one of the elements that you have to prove 
is permanent desertion. So, an individual that would disappear 
from the unit, I don't know, all the instances that I had, and 
I was a legal officer when I came back from--it's normally just 
unauthorized absence. That's one of the charges because you 
have to prove permanent desertion from the unit. Am I correct 
or incorrect on that?
    Mr. Full. That is correct. AWOL also turns into desertion 
after 30 days.
    Mr. Cook. Administratively, normally, so that they're 
carried on that. But once they turn themselves in or what have 
you, that turns into--okay.
    A couple of things in terms of just trust in the unit. I 
get the impression that the unit itself, and I really believe 
in the Code of Conduct. I believe in taking care of everybody 
in the unit, and to give your life for somebody like that. But 
I get the feeling that you lost full trust and confidence in 
that individual that he would be on your right flank or your 
left flank. In other words----
    Mr. Full. As far as the rest of the platoon?
    Mr. Cook. No, you, and if you could--if you had any 
opinions what the feeling of the rest of the platoon is?
    Mr. Full. Well, the rest of the platoon, we're brothers. 
None of the rest of us walked off on our own free will.
    Mr. Cook. No, but I--the attitude of this individual that 
was missing in action.
    Mr. Full. Well, he walked off on his own accord. If he 
never would have walked off, he never would have been held in 
captivity. The rest of us fought for the guy to our left and 
our right, and in front and back. And I don't know he felt 
about us but we all felt strongly that we would give our lives 
for him.
    Mr. Cook. Okay. In terms of the Taliban, I'm not going to 
go into the surprise, you know, that you weren't notified, but 
just an impact on a combat unit that is fighting that 
organization and then suddenly for whatever reason that five of 
their top leaders, five of the ones that call the strategy, 
five of the ones that kill Americans, five of the ones that are 
involved in terrorism, are released. What kind of psychological 
impact do you think that would have for the unit aside from 
Bergdahl?
    Mr. Full. Well, if my high-ranking members in my 
organization were released back to me, I'd feel pretty good 
about getting my top level guys back, personally.
    Mr. Cook. I understand that, but from the standpoint of the 
fact that the Taliban, basically the enemy that you're trying 
to track down, find, and everything else, that the impact that 
hey, they're back there calling the shots. Would that have a 
demoralizing impact on the unit if you were still with that 
unit, of course?
    Mr. Full. Oh, no. The American forces are going to do 
whatever they can every single day, do what they're supposed to 
do. I don't think they're really worried about anybody else.
    Mr. Cook. Okay. Mr. Waltz, in terms of permanent impact on 
policy in regards, have we set a precedent by doing this in 
regards to all the other terrorist groups?
    Mr. Waltz. I believe we have, Congressman. I believe we've 
set a dangerous precedent, and I'd encourage this body to look 
closely at future efforts toward release and calls to close 
Guantanamo. We had these gentlemen detained. Men and women gave 
their lives to detain them. Now, unfortunately, I believe men 
and women will give their lives to capture or kill them once 
again.
    Mr. Cook. Thank you. And I want to thank the panel. I yield 
back.
    Mr. Poe. The gentleman yields back his time. The Chair 
recognizes the gentleman from California, Mr. Vargas, for 5 
minutes.
    Mr. Vargas. Mr. Chairman, thank you very much. And, again, 
thank you for holding this hearing. I want to add my 
condolences, too, to the Andrews family and, sir, to yourself 
and to your wife. And I hope that the chemotherapy that we've 
heard about just a little while ago is successful, sir. And 
your son, obviously, clearly was a hero, and thank God for him. 
And Specialist Full, too, we want to thank you. I want to thank 
you for your service to our nation. Mr. Waltz, you also, 
obviously, for the great service you've got. Mr. Jacobson, I 
want to ask you a little bit because earlier on everyone was 
thanked for their service except for you. Do you remember that? 
You were kind of cut off? You weren't thanked for your service. 
Do you remember that?
    Mr. Jacobson. I heard a lot of thanks for service.
    Mr. Vargas. Okay. What was your service, because at one 
point everyone was thanked except for you. I thought you were 
in uniform for a while, too.
    Mr. Jacobson. I did. I enlisted in the United States Army 
Reserve from 1993 through 2001 with service in Bosnia. I then 
took a U.S. Navy commission as an intelligence officer and 
continue to serve in the Navy Reserve today.
    Mr. Vargas. Okay, thank you. I thought so. I wasn't sure 
about it, so I just wanted to make sure. So, I want to thank 
you also for your service, thank you.
    Mr. Jacobson. You're welcome, Congressman.
    Mr. Vargas. Thank you. Obviously, the issue here is the 
principle, I think, of do we exchange, do we negotiate, do we 
leave people behind? And, obviously, I mean, we've read a lot 
about what us politicians say, and I won't take the time to 
read it. I was going to read from the Congressional Record 
because it's interesting what politicians say when it's 
beneficial to them. There's lots of interesting things being 
said both sides.
    I'd like to know what the military thinks about this, Mr. 
Waltz. You seem to have a good ear to what the Joint Chiefs of 
Staff and others are saying. What do they say about this deal? 
Are they criticizing it? Are they in favor of it, have they 
been critical of it? Do you know what the Joint Chiefs have 
said, or what they believe?
    Mr. Waltz. Congressman, you know, obviously many of our--we 
have civilian oversight of the military and our most senior 
leaders are supportive of this policy. I can tell you from the 
rank and file, anecdotally, that are reaching out to me, 
they're just as furious and resentful as we were at the time. 
And I think if things had been handled a little bit 
differently, if there had been a quiet reunion with the family 
and Sergeant Bergdahl had----immediately there hadn't been a 
rush to judgment to call him a hero, and tell the world he 
served with distinction you would have seen a very--a much more 
muted reaction.
    Mr. Vargas. So, it's not necessarily the principle of 
getting them back. You know, I was very curious when I listened 
to you and you said that, I believe, and I don't want to put 
words in your mouth, but I believe you said something we were 
out there looking for him and we were trying--and we should 
have, although we resented it, we were doing it. I mean, it 
sounded like you were doing what you thought you should have 
done.
    Mr. Waltz. That's right. I don't know of many folks who 
debate the principle that we should get every American back. I 
think what's debated and what's controversial is, one, his 
treatment when it was announced. But then, two, the price we 
paid. And I personally believe the price was too high. Some 
people draw the line at Khalid Sheik Mohammad. I draw the line 
in the top five senior Taliban members that were requested by 
the Taliban.
    Mr. Vargas. Thank you, sir. Dr. Jacobson, I'm going to ask 
you the same question, again. Thank you, sir, for your 
testimony. What about that notion, do you know where the Joints 
Chiefs of Staff, where are they on this? Are they against it, 
are the military in favor of it? If they are, why? Would you 
comment on that?
    Mr. Jacobson. I can only refer back in terms of the serving 
military leadership to the public statements made by Chairman 
of the Joint Staff Dempsey, General Odierno, and others. But 
two of my personal heroes who have retired from the military, 
General Jim Mattis and General Stanley McChrystal have been 
unequivocal in their support for that concept, and I'd be proud 
to stand where they are in this.
    I do understand that some feel that it's the right thing to 
do, but they don't have to like it. There are a lot of missions 
in the military that soldiers, sailors, airmen, marines are 
very happy to do, that's why they're professionals, and they 
don't like it.
    At the same time, I think what makes our nation so great is 
that I've spoken to many individuals who actually are very 
content with this, and didn't have a problem doing it. But I 
would find it strange if there was any less disagreement over 
the--how much one enjoyed having to do this, or whether or not 
we should have done it. I'd be very surprised if there was that 
disagreement in the military.
    Mr. Vargas. Well, you know, I have to say one of the things 
that I find odd right here is it seems like no one is 
disagreeing with the principle that we should get this guy, it 
was just how it was handled, how it was handled, you know, 
saying that he was a hero, you know, giving the Rose Garden 
deal and all that. It doesn't seem like the principle is one 
that Mr. Waltz or--correct me if I'm wrong. It sounds like the 
principle is one you agree with. And I apologize----
    Mr. Waltz. Congressman, it's the principle and the price 
that we paid, and I would argue that we'll have to pay again to 
deal with these gentlemen in the future.
    Mr. Jacobson. And, Congressman, I think that it was a good 
price. I think this was worth the risk to get Sergeant Bergdahl 
back home.
    Mr. Vargas. Thank you, Mr. Chairman.
    Mr. Poe. The gentleman yields back. The Chair recognizes 
the gentleman from Florida, Mr. DeSantis, 5 minutes.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Mr. Jacobson, you had taken issue with Mr. Waltz when he 
had mentioned, I think correctly, that Mullah Omar thought this 
was a great thing for the liban. You said well, yes, maybe 
thought beheading Bergdahl would have been better for them. We 
can't say that. Do you honestly think if they thought beheading 
Bergdahl would have helped them that they would not have done 
it in a second? They did this, they got those men back because 
they want those guys back in command. Of course it was better 
for them, so I thought--that comment I thought was just--struck 
me as totally off base.
    Let me ask you this, do we have troops in Afghanistan right 
now?
    Mr. Jacobson. Yes, Congressman.
    Mr. DeSantis. Okay. So, you have referenced troops who have 
been left behind. And we can argue whether Bergdahl left his 
unit behind. And I agree with Specialist Full, I think he did 
that, everyone that served with him said that. If we still have 
troops there, who have we left behind? We're still fighting the 
conflict. It's not over yet, so the notion that somehow had we 
not done this trade that means we ``left him behind'' is utter 
nonsense. So, what we've done is we've replenished the enemy in 
wartime when we still have fighters in there, and those 
individuals will be back on the battlefield, even if you 
believe this Qatar year. They're going to be back while we 
still under the President's timetable still have troops there. 
So, we have not left anybody behind.
    And I think Mr. Waltz hits it right on the head about the 
price that you pay. Does this help or harm the security 
interest of the United States? I would refer to people, like to 
my colleague, Sam Johnson, who was a Medal of Honor winner, one 
of the most respected men in this body, prisoner of war. He 
said, ``Absolutely not, this should not have been done.'' And 
when he was a prisoner of war, he would not have wanted to go 
back if it meant harming the security interest of his country. 
And when I talk to veterans in my district, and I have people 
who were POWs, they say the same thing. Yes, of course, we want 
to get everyone behind. We don't harm the country and put 
everyone else at risk to do that.
    Mr. Andrews, did your son, Darryn, get honored at the White 
House for his service?
    Mr. Andrews. No, sir.
    Mr. DeSantis. And you were never invited to any type of 
Rose Garden ceremony?
    Mr. Andrews. No, sir.
    Mr. DeSantis. And I think a lot of veterans had a visceral 
reaction when they saw Bergdahl's parents given the lack of 
honorable service----
    Mr. Andrews. That's when the people are calling me.
    Mr. DeSantis [continuing]. It was done to try to say we got 
a hero back. Susan Rice, honor and distinction, in order to 
divert the public's attention from the price that we paid. They 
didn't want the public focusing on the Taliban Five. They 
wanted the public focusing on we brought a soldier home, and so 
they had to inflate his service in order to try do that. So, it 
was an attempt at a deception of the public, and I think it 
struck a lot--I mean, me as a veteran and a lot of my folks in 
my district were very, very upset about that.
    Let me ask you this. The Army lied to you, basically, about 
how your son died. Correct?
    Mr. Andrews. They at least, at the very best didn't tell 
the whole story.
    Mr. DeSantis. Okay. So, knowing that, knowing that you 
didn't get the whole story, do you have confidence with this 
Bergdahl matter, we heard oh, we've got to let the military 
decide, but do you have confidence that they're going to do an 
investigation that's impartial and adequate?
    Mr. Andrews. My personal feeling is if they will let the 
military do it and leave the politics out of it, I think they 
will do it.
    Mr. DeSantis. Do you think that if there is a high-ranking 
flag or general officer who's career could be impacted by how 
that case goes----
    Mr. Andrews. See, that's putting politics back in.
    Mr. DeSantis. Well, I think, unfortunately, once you get up 
to that level, if that's where it is, and I'm a former JAG 
Prosecutor, so I'm worried about how it's working out.
    Specialist Full, do you think that Mr. Bergdahl deserves an 
honorable discharge from the Army?
    Mr. Full. No, I do not. It's a slap in the face to all 
those that did serve honorably, upheld their oath, and didn't 
desert, that he gets the same benefits that they do.
    Mr. DeSantis. And if he goes--if this case gets diverted 
for whatever way and he's not actually found guilty at a court-
martial and given a punitive discharge, is it your 
understanding that he would then be entitled to back pay for 
all the years that he was gone?
    Mr. Full. Yes, he would be entitled to back pay, which I 
think is around $300,000, college benefits, VA health care 
benefits, everything a veteran gets with an honorable 
discharge.
    Mr. DeSantis. So, you think that given what happened, you 
know, if you were advising a prosecutor as to what to ask for 
the penalty, would a dishonorable discharge be one of the 
things that they should ask the military judge or the members 
for?
    Mr. Full. Yes, reduced in rank, forfeiture of all pay, and 
a dishonorable discharge is what I'd recommend.
    Mr. DeSantis. Well, I appreciate that. I am concerned--I 
mean, I have been involved in the Military Justice System. 
There is an inherent amount of lot of politics involved when 
you get at that level, and I think it's important that this is 
transparent. And I think Congress needs to conduct oversight. 
You know, how Nidal Hasan was handled, to me, was a travesty 
that it took that long, and he got over $300,000 just sitting 
in the brig. So, I appreciate the witnesses, and I yield back.
    Mr. Poe. The gentleman yields back. The Chair will 
recognize the gentle lady from Florida, Ms. Frankel, for 5 
minutes.
    Ms. Frankel. Thank you, Mr. Poe. Again, I want to just, to 
Mr. and Mrs. Andrews, I just--my heart breaks for you. I'm so 
sorry, I'm sorry that you have to be here. And I'll try not to 
politicize this really for your benefit. To the other gentlemen 
really thank you, again, for your service. I cannot tell you 
how much as a mother of--and I don't want to keep hoisting my 
son up, but I understand your bravery, your selflessness, just 
thank you, thank you, thank you.
    My first question is to Dr. Jacobson, and if the others 
want to answer, fine. What can we learn from Sergeant Bergdahl? 
I know we're bringing him back, we've been talking in all types 
of disparaging ways about him. We don't know that much about 
him, at least I don't. But what can we learn from his capture? 
Can he give us valuable information?
    Mr. Jacobson. Absolutely, Congresswoman Frankel. I know 
Representative Kinzinger knows from his time going through SERE 
training, a lot of what we understand now about captivity, a 
lot of what can do to help innoculate our personnel against 
those stresses comes from, unfortunately, the experience of 
individuals who were held captive not just during our wars, but 
during peacetime detention. So, as we have heard from the 
military, there is going to be a debriefing process, and in 
that one can hope that there is information that one day might 
save the life or make it less problematic for future U.S. 
personnel who are held in captivity in the inevitable conflicts 
in the future.
    Ms. Frankel. I believe for--without debating the merits of 
how long we stayed in Afghanistan, I do believe that we were 
there because our own freedoms were jeopardized by al-Qaeda, 
and they were being protected by the Taliban. I want to talk 
about those freedoms.
    What sets us apart from the Taliban? Specifically, I know 
you probably all agree, you go to fight for our freedom, 
freedom of speech, freedom of religion, and there's something 
else I would respectfully like to suggest, which is our due 
process of law that we have in this country, and what a high 
standard it is. So, my question to all of you is should 
soldiers who misbehave be subject to due process of law?
    Mr. Full. Well, he's a member of the armed forces. He's not 
subject to a civilian or Federal court, he's subject to UCMJ 
action.
    Ms. Frankel. Should he have due process even though it's a 
military court?
    Mr. Full. Yes, that's the whole point that I'm coming 
forward and telling my side of the story. He deserted, he's 
back, great he's back, but he needs to face and be held 
accountable for his actions.
    Ms. Frankel. Yes, Mr. Waltz?
    Mr. Waltz. Congresswoman, there was a real fear, me 
included in those first 24 hours that there would be, you know, 
``ticker tape parades,'' and Rose Garden ceremonies, and that 
this whole effort would get politicized, and that the truth, 
frankly, would be buried. And that's why both myself, 
Specialist Full, and others have come forward.
    Ms. Frankel. Okay. So, I think we agree, though, the due 
process of law, that he's entitled to that.
    Mr. Full. Absolutely.
    Ms. Frankel. And, lastly, I mean, I want to--anyone who 
wants to answer this question. This I'm coming at as a mother, 
all right? Which is, do you believe all our soldiers, all these 
men and women who go into battle, go into war are perfect? Do 
we bring in perfect people?
    Mr. Jacobson. I hope my friend Mike will agree. When you've 
been in charge of junior troops, hardly a day probably goes by, 
it's almost like being a parent, where a parent--kids are 
imperfect. I'm sure my mother would say the same thing, but 
that's why it's so important to have well trained NCOs, to have 
good leaders in those positions to guide these troops through 
something that's unbelievably stressful, and to ensure that 
they all get home alive.
    Ms. Frankel. Well, I do know this. I don't know very much 
about Mr. Bergdahl or his family, or what he was going through, 
what his mom was going through. I hope that will be determined 
as you have suggested. I think that's fair. But I do know this, 
that so many of our young men and women are coming home and 
they have been stressed out, and are mentally unstable. And I 
would not like to think that they would not be subject to due 
process if they committed a crime.
    So, with that, I want to thank you, thank you all of you 
for your service. Again, Mr. and Mrs. Andrews, really I'm so 
sorry for your loss. And, Mr. Chair, I yield the rest of my 
time.
    Mr. Poe. The gentle lady yields back. And just so the 
record is clear, Mr. Andrews served in the United States Air 
Force, so all four of you all, thank you for your service.
    Ms. Frankel. Thank you for your service, sir.
    Mr. Poe. The Chair recognizes the gentleman from Florida, 
Mr. Yoho, for 5 minutes.
    Mr. Yoho. Thank you, Mr. Chairman, panelists. I appreciate 
your being here, and thank you for your service to our great 
country.
    Mr. and Mrs. Andrews, thank you for the sacrifice of what 
you went through. I, as a grateful citizen of this great nation 
and a Member of Congress am appreciative every day of the 
liberties and freedoms that we get to experience because of the 
willingness of people to serve, commit, and dedicate to this 
country. I thank you.
    I think we should keep the narrative on the policy. The 
description of whether or not he was a deserter or not, as you 
brought up, Specialist Full, that will come out and it will go 
through its due process.
    Mr. Waltz, you said in your bio, you state that you deal or 
provide strategic analysis and policy development for other 
countries. Was the transfer of one American soldier for five 
Taliban a wise decision in your opinion?
    Mr. Waltz. Congressman, I think we should look at this 
policy as a whole and learn from it. Right now, a gentleman by 
the name of Mullah Abdul Zakir is the head of the Taliban 
Military Committee that we released previously from Guantanamo, 
and we're paying that price now. And further, Abu Bakr al-
Baghdadi, head of ISIS that's terrorizing Syria and Iraq right 
now, was also detained in Camp Bucca. We need to learn lessons 
from these releases that we're paying for later.
    Mr. Yoho. So, in your opinion it's probably not a wise 
policy to implement.
    Mr. Jacobson, you and Mr. Sherman were referring to our 
democracy, and you brought in Israel, as democracies trade for 
prisoners all the time. And I know I don't need to remind you, 
but this is not Israel, we're not Israel. We don't do that as a 
policy. And you're talking about a democracy, and again I know 
I don't have to remind you, a true democracy is majority rule, 
it's mob rule. And what I hear the public want to do with Mr. 
Bergdahl is mob rule. And I had to remind people we're a 
constitutional republic where the minority is protected by rule 
of law. And as Ben Franklin always talked about, a democracy is 
two wolves and a sheep deciding what to have for lunch. That 
sheep always loses, and so I'm thankful that we're in a 
republic. And we need to remind people that we are different 
because we do follow that.
    And as far as Mr. Bergdahl, he will come home. And I think 
any time we get an American soldier back to our country we all 
should celebrate. But I think before we hang judgment on him, 
was he wrong or right, we need to look at and let the military 
go through what they're going to go through to decide the fate 
of that young man.
    The issues that I want to ask you about, do we negotiate 
with terrorists or not? And, again, I think Specialist Full, 
you brought up they're terrorist. It's not even a nation, it's 
a terrorist group. And, again, this goes against our 
precedents, it goes against our historical policy. Do you think 
this is a wise thing that we do, or implement?
    Mr. Jacobson. Congressman, I certainly think that it's a 
wise thing that we retrieved Sergeant Bergdahl.
    Mr. Yoho. There's no doubt about that, but negotiate with 
terrorists.
    Mr. Jacobson. I want to run through just a list of a couple 
of situations where we have negotiated not only with 
terrorists, but with insurgent groups, and state-sponsors of 
terrorism. As I mentioned, part of bringing the war in 
Afghanistan to conclusion will be continuing discussions with 
the Taliban, but taking a look back at our own history, not 
just discussions that we've had with the North Koreans. We 
also----
    Mr. Yoho. Okay, North Korea, that's a country, it's not a 
terror----
    Mr. Jacobson. They sponsor terrorism.
    Mr. Yoho. They're a country.
    Mr. Jacobson. Was a state-sponsor of terrorism.
    Mr. Yoho. Okay.
    Mr. Jacobson. I also look back, as I said, if you 
understand that there are differences between insurgents, 
between terrorists, between state-sponsors of terrorism, the 
concern I think people have is this idea of ransom for a 
hostage. And I look back even at what--and I'm going to give 
you allied and U.S. examples: Ronald Reagan in terms of what 
happened with the Arms for Hostages deal. Margaret Thatcher and 
her secret talks with the IRA. No one would discount that the 
IRA was terrorist group.
    Sometimes you end up sitting across the table from those 
who have the blood of your friends on their hands to bring 
peace. And if that is the case that we are seeing, if that's 
what sitting down with the Taliban means, then I fully support 
that.
    Mr. Yoho. Okay. Let me ask you both, Mr. Waltz and Dr. 
Jacobson, did the President by not consulting with Congress 30 
days before in your opinion break the law? Mr. Waltz?
    Mr. Waltz. Congressman, that's my understanding of the law. 
I'm not a legal expert, but my understanding of the law was 
that Congress was to be consulted.
    Mr. Yoho. Dr. Jacobson?
    Mr. Jacobson. I'm not a lawyer, and you're all going to 
argue about that statute, but I think what the President did, 
acting on short notice was absolutely the right thing to do.
    Mr. Yoho. I yield back. Thank you.
    Mr. Poe. The gentleman yields back his time. The Chair 
recognizes the gentleman from Texas, Mr. Castro, for 5 minutes.
    Mr. Castro. Thank you, Mr. Chairman. And to Mr. and Mrs. 
Andrews, my condolences and safe travels on your way back to 
Texas. I represent San Antonio. Thank you for being here, and 
thank you all, all your gentlemen for your service.
    And I agree with part of Mr. Yoho's statement that I want 
to focus on the policy, the agreement that was made for 
Sergeant Bergdahl and that transfer has been made. There's 
still a debate going on about whether that was good or bad, but 
I think the most constructive thing that we can get out of this 
hearing is what we do in the future.
    And in that vein, I think there's two issues here. First, 
if someone deserts their unit, should we go retrieve that 
person? And then second, what is the appropriate deal that we 
should make for a soldier? So, it sounds like, at least, the 
prevailing idea is that even if somebody deserts, we should 
still try to retrieve that person. Does anybody on the panel 
differ or disagree with that principle?
    Mr. Waltz. Congressman, I think it comes down to a matter 
of intent. Dr. Jacobson raised the issue in the case of Mr. 
Jenkins who deserted into North Korea. To my knowledge, there 
were no attempts to bring him home until he appeared 40 years 
later in Japan.
    Mr. Castro. But would you, and I know that it has not been 
adjudicated whether he deserted or not. I know that there is 
some evidence within--among the other soldiers that suggests 
that perhaps he did, but that has not been adjudicated. But 
assuming for the sake of argument that he did, does that mean 
that if somebody deserts that we shouldn't go get him? Should 
we change policy next time?
    Mr. Full. Well, I think the problem as has been stated is 
they brought him to a hero's welcome, and we're not the only 
people that knew that he walked off on his own accord. There 
was an original investigation done.
    Mr. Castro. Sure.
    Mr. Full. It's still open because they have to get his side 
of the story, but everybody knew that he walked off on his own.
    Mr. Castro. So, assuming that he did this, right, and that 
there's no argument, then you're saying still bring him home, 
just don't celebrate it. That would be your point.
    Mr. Full. Why would you call him a hero when there's people 
like his son who pushed somebody down and took an RPG round.
    Mr. Castro. Right.
    Mr. Full. And gave his life for another one who is a hero, 
that didn't get a hero's welcome.
    Mr. Castro. But in terms of the policy, you would still say 
go get that person.
    Mr. Full. I don't know. I'm not--I'm truthful.
    Mr. Castro. And then to my second question, what is the 
appropriated deal that we should make to have a soldier return. 
Right? There is a big issue here over whether you negotiate 
with terrorists, or only nation states, but I think that the 
difficulty we're running into here is that our enemies in this 
common era are no longer just nation states. They are groups 
like al-Qaeda, Haqqani Network, and others.
    So, let me ask you, Mr. Waltz, because you were both a 
soldier and you're a policy expert. What deal would you have 
made for Sergeant Bergdahl?
    Mr. Waltz. Congressman, my own view is in any negotiation 
both sides should walk away unhappy. That means it's about 
right. And in this case the enemy walked away happy. The enemy 
walked away declaring victory, and received exactly what they 
asked for. I don't think that was good negotiation on our part.
    Mr. Castro. But how does that translate--what would you 
have given--if you were writing policy, what would you have 
exchanged for Sergeant Bergdahl?
    Mr. Waltz. Congressman, there's a number of lower-level 
detainees held in Afghanistan and other places. I think it was 
the--a lot has been mentioned about trading numbers. The issue 
for me here is the quality.
    Mr. Castro. So, you might have given 100 people for one 
person if they were lower level folks.
    Mr. Waltz. I don't like it. I think that's a policy issue 
that had to be debated, but the decision that was made, these 
five, was a bad decision.
    Mr. Castro. Did we get anything in exchange, Mr. Jacobson, 
did we get anything in exchange for the prisoners that were 
released from GITMO by President Bush?
    Mr. Jacobson. Not that I'm aware of, but I have to say the 
news reports I can remember from that time period, there was 
talk about political deals and that, but I--nothing like the 
Bergdahl situation.
    Mr. Castro. So, that was just a straight release, 
essentially, of those folks?
    Mr. Jacobson. Yes.
    Mr. Castro. Okay. Chairman, I yield back my time.
    Mr. Poe. Thank the gentleman from Texas. The Chair 
recognizes another gentleman from Texas, Mr. Weber, 5 minutes.
    Mr. Weber. Thank you. Specialist Full, what would you say 
is the--was the morale in your unit following this illegal 
prisoner exchange?
    Mr. Full. I'm not in the Army any more, sir.
    Mr. Weber. Would you hazard a guess?
    Mr. Full. Oh, as far as us when we're talking?
    Mr. Weber. Absolutely.
    Mr. Full. Well, we were very upset with it. Like I said 
numerous times, with the hero's welcome.
    Mr. Weber. Okay. In your opinion, would this have set up 
this agreement between an enlisted officer and those rank and 
file soldiers, or were they pretty much in agreement this was a 
bad deal?
    Mr. Full. This is a bad deal all around.
    Mr. Weber. All the way around.
    Mr. Full. Nobody in the Blackfoot Company that would----
    Mr. Weber. If you could say anything to President Obama 
regarding this trade, what would you say?
    Mr. Full. I'm not going to say that.
    Mr. Weber. Fair enough. Mr. Waltz, you're forewarned, same 
questions. What would you say would be the morale of those 
units following this prisoner exchange?
    Mr. Waltz. Fairly low, Congressman. And in terms of your 
second question, I would point the President to the heroes at 
the end of this table.
    Mr. Weber. Okay.
    Mr. Waltz. They deserve the same level of treatment.
    Mr. Weber. Would you advise him to make the same trade 
twice?
    Mr. Waltz. No, Congressman, I wouldn't. And just a follow-
on to the previous Congressman's question. I think there are a 
lot of other policy options open that weren't fully explored, 
more pressure on Pakistan, for one. He was held by the Haqqani 
Network which has been described as a veritable arm of the 
Pakistani Intelligence Service. There are a number of other 
options that were on the table besides a trade.
    Mr. Weber. Okay. Dr. Jacobson, what would you say to the 
President?
    Mr. Jacobson. Congressman, I would say good job, absolutely 
go do this again, bring our soldier home.
    Mr. Weber. Mr. Andrews, after having sat here, and thank 
you very much, and you, Mrs. Andrews for being here, after 
sitting through this hearing, what now would you say to this 
committee?
    Mr. Andrews. For one thing, 5 minutes isn't as long as it 
used to be, but what I would say to the committee is my son was 
a soldier's soldier, and it didn't matter what the assignment 
was, he was going to do it. And I don't believe that you have 
to be a perfect person to follow the Military Code of Justice. 
You have a book right there. Read the book and do what it says. 
It's not that complicated. But do not let my son--to me, this 
situation with us not being told the whole truth, and then 
trading a private for five high-ranking Taliban, exactly why 
did my son die? Tell me one more time, because I don't know 
what we've accomplished.
    Mr. Weber. If you could say that to the President, is that 
what you would say to him?
    Mr. Andrews. Yes.
    Mr. Weber. And now the hard questions, and forgive me. If 
you could get your son back by trading five more of those 
senior Taliban?
    Mr. Andrews. If my son had been a deserter, then no, 
absolutely not. But my son was a man of honor, and I would do 
almost anything.
    Mr. Weber. Thank you, folks. Mr. Chairman, I yield back.
    Mr. Poe. The gentleman yields back his time. The Chair 
recognizes the gentleman from Pennsylvania, Mr. Perry, 5 
minutes.
    Mr. Perry. Thank you, Mr. Chairman. I want to thank each of 
you gentlemen for your service. Certainly, Mr. Andrews, I want 
to let you know as someone who's worn the uniform that many 
Americans feel like the actions by the administration and the 
President have diminished your son's service, and your and his 
sacrifice. And I let you know that I'm of that opinion, but I 
also want to let you know that he has done a great thing for 
the men that he served with, and the ones that are particularly 
alive because of his actions, and a very grateful nation. So, I 
just want to thank you for your sacrifice, as well.
    Turn to questions. I'll start with Mr. Jacobson. You keep 
saying, or at least I've heard you say a couple of times the 
end of the war regarding the reference of prisoner swaps. And 
I'm just wondering has the Taliban, as far as you know, stated 
that they consider the war to be coming to a close?
    Mr. Jacobson. Congressman, I was referring to the end of 
conflict in the Second World War and Korean, specifically.
    Mr. Perry. So, the paradigm is not the same, is my point. 
We might be drawing down, but the Taliban, as far as you know, 
are they going to continue to fight?
    Mr. Jacobson. Well, the Taliban have been in talks with the 
United States for several years.
    Mr. Perry. As far as you know, do we have any reason to 
believe right now they're not going to continue to fight when 
we stop?
    Mr. Jacobson. I don't believe we are stopping the fight, 
Congressman.
    Mr. Perry. We're just in disengagement. Right? So, the war 
is still going to continue as far as you know.
    Mr. Jacobson. We're still working with the Afghans not only 
to try----
    Mr. Perry. All right. I got it. I got it. So, are you--when 
you say that these folks that we released have been so long 
gone from the battlefield that they can't be relevant, are you 
aware that Mr. Baghdadi, who's currently running ISIS, was 
released in 2005? This is now 2014. Is he still relevant on the 
battlefield today?
    Mr. Jacobson. I can't comment to a specific situation. I'm 
not----
    Mr. Perry. I can comment. He's damn relevant, sir. Let me 
move on.
    Mr. Full, there was an investigation regarding Mr. 
Bergdahl's absence conducted at some point. Right? And I 
imagine you gave sworn statements in that regard?
    Mr. Full. Yes, 15-6.
    Mr. Perry. Right. So, do you think that the Army is aware 
of the circumstances, his circumstances of departure?
    Mr. Full. Yes.
    Mr. Perry. You do. And I do, as well. I would like to turn 
to Mr. Waltz at this point.
    Understanding your circumstances if captured, what is your 
understanding if you were captured on the battlefield of what 
we would do, and what we wouldn't do, what you could expect 
from your country?
    Mr. Waltz. Congressman, we deploy knowing the high 
likelihood of being captured, and it comes with that 
understanding that ransoms will not be paid, and there will not 
be swaps for us. The United States will do everything it can to 
get us back, but there's limits to what the country is going to 
do. And I personally would not want anything done that's going 
to harm our ongoing national security or endanger my fellow 
soldiers.
    Mr. Perry. Were you ever given the impression when you took 
the oath, or any time after that, that the United States would 
jeopardize our national security on your behalf to get you out 
of----
    Mr. Full. Absolutely not, Congressman, nor would I want 
that to happen.
    Mr. Perry. So, let me ask you, you're a Special Operator. 
On June 3rd, the AP reported that the United States Government 
knew the whereabouts of Mr. Bergdahl from three sources, UAS, 
satellite, and human intelligence. You're a special operator 
and you know the capability--you got out in 2009. Right? It's 
now 2014, things have changed a little bit, but I know you stay 
involved and in touch with your community.
    My point is the options. Right? So, we had some options on 
the table and we chose to trade five high-value targets for one 
service member, right, that we wanted to free and have come 
back home, which is laudable to have him come back home. It is 
the right thing to do.
    Do you have any lack of confidence in your ability, of your 
unit, the United States Army with the capabilities we have, if 
we knew where he was, your ability if tasked with the mission 
and given the resources to go and retrieve that soldier?
    Mr. Waltz. I don't know the details of----
    Mr. Perry. I know you don't.
    Mr. Waltz. But if we knew where he was and we were 
confident, and the risks were evaluated, absolutely we have the 
capability to get him.
    Mr. Perry. So, you already spoke about the different 
options that we had or didn't have, and you don't think this 
was the best one. If we knew where he was, can you think--can 
you come up with some scenario where we have people on the 
ground that do what you did for a living, that we wouldn't 
exercise that option?
    Mr. Waltz. The only scenario that comes to mind, sir, is 
that this was part of a broader policy initiative to open up 
talks with the Taliban; that this was a confidence-building 
measure, and this has been discussed for some time now, that 
potentially this trade would be a confidence-building measure 
as a first step toward future talks. That's the only plausible 
scenario that I can come up with.
    Mr. Perry. My time is expired, I yield back. Thank you.
    Mr. Poe. The gentleman yields back his time. The Chair 
recognizes the gentleman from Wisconsin, Mr. Duffy, for 5 
minutes.
    Mr. Duffy. Thank you, Mr. Chairman.
    First of all, to respond to my colleague across the aisle 
about due process, all of us agree on due process. The 
conversation happening today is not about due process, the 
conversation today is about the decision the administration 
made for the five Taliban members in exchange for Sergeant 
Bergdahl. That's the conversation. We all believe in due 
process. We're Americans.
    Mr. Waltz, I think it was you who indicated that you had 
conversation about your country will never leave you behind. 
And I don't know if it was you or Specialist Full who had 
mentioned you thought it was that your country won't leave any 
honorable man behind. Specialist Full, was that your comment?
    Mr. Full. Yes, it was.
    Mr. Duffy. Was Sergeant Bergdahl left behind?
    Mr. Full. No.
    Mr. Duffy. No.
    Mr. Full. He walked off on his own.
    Mr. Duffy. He left. Correct?
    Mr. Full. Yes, he left.
    Mr. Duffy. So, he wasn't left behind. He walked off.
    Mr. Full. He left us behind.
    Mr. Duffy. Right. And, Dr. Jacobson, you've indicated that 
the fight is not over. Right? They're going to continue this 
fight. It's not over, peace has not been declared with the 
Taliban.
    Mr. Jacobson. That's correct, Congressman.
    Mr. Duffy. So, with the war or the fight that's going to 
continue, it seems to me the argument that well, we're all 
putting our arms down, and the conflict is going to end. This 
exchange makes sense. That's what we do. World War II when the 
war is over, we put down our arms, we exchange our prisoners 
and everyone is happy. But that's not this case, right?
    Mr. Jacobson. Well, that's not----
    Mr. Duffy. This case you've said the fight will continue, 
and with the fight still going on, we took someone who 
allegedly walked away from his post in exchange for five high-
level Taliban members, and the fight continues. Am I wrong on 
this?
    Mr. Jacobson. The fight continued in Korea after the 
prisoner exchanges, the fight continued in World War II after 
the exchanges in 1944, the fight will continue in Afghanistan. 
My argument is that the risk of putting these five individuals 
on the battlefield is mitigated by a number of factors to 
include all the accomplishments that we've seen in Afghanistan 
over the past several years.
    Mr. Duffy. I'll get to the risk in a second, but in regard 
to the prior swaps that have been made, those swaps have been 
made with nation states. Correct? Do you have an example where 
we've had swaps with a non-nation state before this one?
    Mr. Jacobson. The examples I have, and you term this a 
swap. The examples I have of negotiation with non-nation----
    Mr. Duffy. I didn't ask--I'm talking a swap, we exchange 
prisoners with a non-nation state, or better yet for a 
deserter, if that's what he--the military finds him to be.
    Mr. Jacobson. The closest thing I can think of is after the 
Battle of Mogadishu and the negotiations to get back Chief 
Warrant Officer Michael Durant.
    Mr. Duffy. But not with--you don't have a prior example of 
a swap with a non-nation state. This is----
    Mr. Jacobson. Well, that was with Mohammed Farrah Aidid who 
was not a nation state.
    Mr. Duffy. In regard to the threat that this now poses, Mr. 
and Mrs. Andrews talk about a son, and how he may--that he 
would be able to make that exchange to bring his own son back. 
I think every heart breaks in here thinking about what his 
family has gone through and the sacrifice that his son made for 
his country.
    Do you feel pretty comfortable that with these five Taliban 
members released that we won't have another hearing like this 
of another American family who lost a son or daughter who's 
over fighting on behalf of the country because of these five 
that were released, or do you feel pretty comfortable that 
America is a safer place, and our men and women are safer in 
those foreign lands?
    Mr. Jacobson. Our men and women who put on the uniform are 
always at risk regardless of what happened or will happen.
    Mr. Duffy. That's not my question. I'm talking about the 
five that were released.
    Mr. Jacobson. I'm comfortable with the judgment that was 
made by our military leaders that all the risks involved, the 
risk of potentially these individuals ending back up on the 
battlefield, the risks of not getting Bergdahl. I'm comfortable 
that the assessment they made and the recommendations they made 
are the right one.
    Mr. Duffy. Mr. Waltz, I think you said the Taliban got 
their top five draft picks in exchange for Sergeant Bergdahl.
    Mr. Waltz. Yes, sir.
    Mr. Duffy. Good trade?
    Mr. Waltz. Absolutely not.
    Mr. Poe. The gentleman from Wisconsin yields back his time. 
The gentleman from California, Mr. Rohrabacher, is recognized 
for 5 minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. I've 
been running in and out of meetings like everybody else here. 
We're overwhelmed, so I'm sorry if I cover any territory that's 
already been covered here.
    Let me just note that I disagree with the statement that 
our policy has been to do everything we can to get back a 
prisoner. That is not the case, that is not policy for our 
Government. Everything we can? No, even the people who are in 
the field totally understand that we're not going to do things 
that will further put other Americans at severe risk in order 
to get them back. They understand that. And that's part of why 
they're heroes, and that's part of the reason Mr. Andrews' son 
is a hero. He knew he was taking a chance, and that even if he 
was captured that we would not be doing things that would put 
the American people at risk to get him back home. So, I want to 
make sure that is a very significant point for people to 
understand in the discussion of this.
    Second of all, I'd like to point out that there are other 
alternatives to try to get these guys back, or man back, Mr. 
Bergdahl, than just giving up these five leaders of the 
Taliban. We could have, for example--I have seen no evidence. 
Mr. Jacobson, have you see any evidence that there was pressure 
put on Pakistan in order to get the Taliban to return this 
prisoner?
    Mr. Jacobson. Congressman Rohrabacher, I'm not aware of the 
specifics of those negotiations. I've only seen----
    Mr. Rohrabacher. All right. So, you're unaware of the--
you're unaware, I'm unaware. I've been looking, there is no 
indication here that this administration didn't even put 
pressure on the major supporter, the ISI in Pakistan to do what 
they could do to get back this prisoner. Instead, they gave up 
five murderous leaders. Let's take a look at who they are. We 
know that one of them was perhaps engaged in the strategizing 
for 9/11, which resulted in 3,000 Americans being slaughtered 
in front of our face. He's being let go. Then there is Mullah 
Mohammad Fazl, I guess that's how you pronounce his name. I 
know about this man. I know that a long time ago he was, in 
fact, captured. This is, you might say, a second time he was 
released, you might say, because he was captured early on in 
2001 after 9/11, and he was put into a French Fort with 
hundreds of other Taliban leaders and Taliban fighters, and 
there is a tradition in Afghanistan. The tradition is it's 
almost the law that the people live by, it is their core 
principles as Afghans, and that is once you are captured you do 
not try to overpower the person who has captured you. And the 
reason that they have that as part of their law is because over 
the centuries they would have had to kill all of their 
prisoners if they didn't uphold that. So, as part of their 
honor as a person to not--once you're captured, you do not try 
to overcome your captors.
    Well, what happened in this case with Mr. Fazl? Yes, I'm 
sure that he's already promised us that he wouldn't go back to 
doing something and causing--putting our people at risk, or 
attacking Americans, but at that time he led an uprising 
against his captors. They murdered about 50 Afghans where 
General Dostum's Afghani wife introduced Chairman Poe to 
General Dostum before. And they murdered his--the guys who were 
holding them captive, but they also murdered a CIA officer 
named Mike Spann.
    I visited that spot, I visited the spot where Mike Spann 
had been murdered shortly after he was murdered, and this is 
the guy that are one of the five guys we are releasing. We're 
releasing a man who's already murdered the first real American 
to lose his life in the Afghan War, we're releasing him now.
    You think that's going to maybe indicate that we're strong? 
Does this release indicate that we are strong, and that we are 
people--that they're going to have to deal with the United 
States of America in terms of our military strength? No, 
they're going to deal with people who they think are weak, and 
are cowards, and they will be willing then to kill more 
Americans, and to capture more Americans in order to cut more 
deals.
    This is a travesty. The President of the United States has 
maybe got himself into a position here that I don't know if 
maybe he thinks of himself as a peacemaker. I think this will, 
in the end, have just the opposite impact, and I think a 
rational discussion will do that.
    Mr. Chairman, I've got 6 seconds, and I actually would like 
to give our witness the chance to retort to that.
    Mr. Poe. Quickly.
    Mr. Jacobson. Respectfully, I disagree, Congressman.
    Mr. Rohrabacher. Fine, yes. That's it? Okay. Thank you very 
much.
    Mr. Jacobson. If the chairman--at the chairman's pleasure 
I'm happy to continue. I was being succint.
    Mr. Poe. No, time has expired.
    Mr. Rohrabacher. All right. Thank you very much.
    Mr. Poe. Thank you, though. The Chair recognizes the 
gentleman from Georgia, Mr. Collins, for 5 minutes.
    Mr. Collins. Thank you, Mr. Chairman, I apologize. This is 
one of the days when everything goes long. Again, I'm Air Force 
Reserve, I am the chaplain, I served in Iraq. Having been on 
the unfortunate end of the door that you opened, and understand 
this all too well.
    The issues that come up for me, and some of this may be a 
little bit of follow-up on my colleague who just mentioned--
but, Mr. Jacobson, I have a question. You keep bringing up, or 
you brought up before the fact that they're not going back to 
the same Afghanistan that they left, and that they would not 
have the probable impact that they could have had. What leads 
you--what intelligence, what information, what would have you 
to believe that they couldn't get spun up pretty quickly in a 
country that's not changed a whole lot in 4-, 5-, 6-, 700 
years? I mean, what would cause you to believe that?
    Mr. Jacobson. Congressman, in my experience in Afghanistan, 
again both as an intelligence officer, and then later on as a 
civilian advisor where I worked with senior Afghan officials 
every day, I do believe there have been a great number of 
changes if just in the last decade alone.
    For example, I believe that most of the networks that these 
individuals had when they were a force fighting against the 
Northern Alliance no longer exist. Many of their friends are 
dead, many of the Taliban leadership are dead. And I also 
believe that the Afghan people have changed.
    You have seen just in the recent elections, this open 
defiance of threats to kill people who would go vote, 40 
percent of the voters, I believe, were women who were told do 
not do this.
    Mr. Collins. Let me stop you right there for a second. We 
saw a great deal of turnout in the Iraqi elections, too, and 
now we're looking at almost a breakdown to civil war. I mean, 
pointing to an election is a great thing, but also pointing to 
a change of hearts, minds, and attitudes, I'm not sure you're 
actually getting there. So, I mean, we just might probably, 
respectfully, just have a difference of opinion here.
    I believe that they may not walk back into the same 
structure that they had before, but I do not believe it's going 
to take them very long to build from scratch or to bring in 
others that--there's a reason they were wanted them. There's a 
reason they wanted these five. I don't believe that they just 
picked out, said give us five, we'll give you him. And I think 
there's a reason for that.
    The other situation that I would like maybe some general 
discussion about is something that keeps coming up here. Well, 
we're drawing down our action, we're drawing down this war. And 
it was--I don't know, Mr. Waltz, if it was you or someone else 
that basically talked about the fact that we're dealing with 
the Taliban. We're dealing with terrorist organizations in this 
global war on terrorism, not the global war on Afghanistan, not 
the global war on a country. And, granted, when we ended World 
War II there was country state versus country state. We had a--
we're not in that situation any more, and I'm just curious to 
know is, when does the fact that we're fighting--and I don't 
believe the Taliban, or al-Qaeda, or any of these other 
terrorist networks have changed their opinion of the West. Do 
you believe they changed their opinion of the West, or they 
still have the desire to wreak havoc on the West?
    Mr. Jacobson. I actually believe our actions in Afghanistan 
have split views amongst the Taliban. I don't think there's a 
single unified view any more.
    Mr. Collins. Interesting, but I think among the larger 
terrorist network as a whole, and we can go look at that, I 
think there is still a vast determination there, is we go 
forward. So, I'm not sure what--when we draw the line now with 
dealing with, negotiating with, however we want to do this. It 
just--Specialist, talk about this for a second.
    Given the fact that we traded, and there's some who will 
give an argument that this was the end of the war. We had to do 
it, a political outcome at some point. But is this a price that 
you would ever have envisioned paying if--for someone who 
walked off or didn't walk off? Is this what we are sort of 
looking at? Not that we give up, but the price that we give up?
    Mr. Full. We're still at war with the Taliban whether 
people want to admit it or not. And just because we stop 
fighting them, doesn't mean that they're going to stop wanting 
to kill us, and fight us. No, when I signed an oath it was an 
understanding, as Mr. Waltz has said, that I knew there would 
be a certain price up to a point that the United States would 
pay to get me back. And if that was me over there, no, you 
could have left me over there. I would not have wanted you to 
trade five high-level Taliban operatives for myself.
    Mr. Collins. Well, the curious for me at this point is, if 
five was the price this time, what's the price next time, the 
President stepping down, cabinet members stepping down, 
Congress giving them more money? What's the price, because 
we're not dealing with a nation state here. We're dealing with 
thugs, we're dealing with rogues, we're dealing with now the 
same ideological bent that is going through many of the Middle 
Eastern countries, and Iraq is simply a forum, what I'm fearful 
is going to Afghanistan.
    I appreciate you being here. This is just very much of a 
concern for many folks because they do not understand why this 
happened the way it did, given the fact that most believe that 
this war is not over, and that we will see these guys again one 
way or the other.
    Mr. Chairman, I yield back.
    Mr. Poe. The gentleman yields back. The Chair will 
recognize the ranking member for one additional question, and 
recognize itself for an additional question.
    Mr. Sherman. Thank you. I'll note that in 1944 when we did 
a prisoner exchange it was with the Nazis. And, of course, that 
war continued for another year.
    Mr. Poe. Would the gentleman yield?
    Mr. Sherman. Yes, I'll yield.
    Mr. Collins. Would the gentleman also recognize that the 
Nazi Government at that time represented Germany as a nation 
state?
    Mr. Sherman. Yes, but if you think----
    Mr. Collins. Okay. But al-Qaeda never represented anyone as 
a nation state.
    Mr. Sherman. Al-Qaeda did control and govern, with the 
acquiescence of the United States, the vast majority of 
Afghanistan until 9/11. But, more importantly, if you want to 
create groups that are anathema to the United States, I put the 
Nazis right at the top.
    Mr. Collins. Well, I think they also----
    Mr. Sherman. In any case, I have not yielded any further.
    Mr. Jacobson, only an investigation is going to disclose 
the real facts behind Sergeant Bergdahl's disappearance and his 
capture, but we've heard substantial evidence that Sergeant 
Bergdahl acted in an inappropriate and inexplicable manner.
    Can you describe the kinds of stresses that somebody, and 
Sergeant Bergdahl would have faced in Afghanistan, and whether 
that would cause someone, not everyone, but some to act in an 
inexplicable manner? I realize that the vast majority of our 
soldiers, Marines, et cetera, are subjected to those pressures 
and do not act inexplicably.
    Mr. Full. Can I have permission to speak?
    Mr. Sherman. Yes.
    Mr. Full. Well, you're asking Dr. Jacobson what situation 
Bergdahl was in over there. I was with Bergdahl at the same 
location. I could give you a firsthand account of exactly what 
Bergdahl was going through because I went through the exact 
same conditions.
    Mr. Sherman. Well, then I'll ask you then to respond to the 
question first, and then Dr. Jacobson to respond second. I was 
asking more in a general sphere as to what you face in 
Afghanistan but, obviously, you know the specifics.
    Mr. Full. We were at an observation post. It was very 
primitive, we had to eat Meals Ready to Eat which are heated up 
with water. It was very hot, very dirty, went without showers 
for certain days, didn't get phone calls or any comforts of 
home, but it didn't affect anybody else there. We all continued 
the mission and upheld our oath.
    Everybody deals with mental issues in some form or another 
if they deploy to Afghanistan or Iraq. Everybody else still 
came back from that same platoon. Nobody else deserted on their 
own, so there's nothing in my opinion that was so bad that 
forced him to walk off on his own accord caused by anything 
going on over there. He walked off on his own accord.
    Mr. Sherman. Dr. Jacobson, obviously, the vast majority of 
those in his unit were not affected to the point where they 
engaged in inappropriate behavior, and, obviously, anyone in 
Afghanistan is subject to being shelled, or subject to an IED 
at just about any time. Can you describe the pressures that 
people are under, and whether that could explain the 
inexplicable?
    Mr. Jacobson. Well, Congressman, I won't make a claim to be 
able to explain the unexplicable or inexplicable, but what I 
will say is that the stresses of combat are tremendous. From my 
own experience, which was not nearly as far forward in either 
deployment as either of my colleagues to the right, you still 
have fear, fear of being kidnapped, fear of being shot at, fear 
of being shelled, mortared, what have you. There is tremendous 
sleep deprivation for being on long combat patrols or being 
woken in the night to enemy action.
    I do agree that you've raised perhaps one of the most 
important points, and that is that just because there is combat 
stress doesn't excuse actions such as walking away from one's 
post, but this is exactly why you have to have the full 
investigation to determine what happened, and why it happened 
in the hopes that we can prevent that from happening again, and 
hold those individuals who need to be held accountable, 
accountable in the Military Justice System.
    Mr. Sherman. Thank you. And just to correct the record, I 
once said al-Qaeda when I meant to say the Taliban. I yield 
back.
    Mr. Poe. The Chair has one additional question for all four 
of you. The way I understand the law is that before people are 
released from Guantanamo Bay, prisoners there, that the 
Secretary of Defense must explain why it is in the national 
security interest of the United States to release that specific 
prisoner.
    Assume that is the law, and from your point of view, what 
was the national security interest, or do you believe there was 
a national security interest of the United States in releasing 
those five individuals? Dr. Jacobson, do you believe there was 
a national security interest of the United States?
    Mr. Jacobson. Yes, I do, Congressman.
    Mr. Poe. Mr. Waltz?
    Mr. Waltz. Congressman, I believe America is less safe and 
the world is more dangerous with the release of those 
individuals.
    Mr. Poe. Sergeant Full?
    Mr. Full. I believe America is less safe, and the world is 
also in more danger.
    Mr. Poe. And, Mr. Andrews, I'll give you the last word.
    Mr. Andrews. Thank you. I believe America is less safe. I 
believe these five guys are going to come after us. I believe 
that it was a mistake to release them, and that that did not 
serve our national interest in any way.
    Mr. Poe. I want to thank you all for being here. Ms. 
Andrews, I want to thank you for being here, as well.
    The committee is adjourned. Thank you.
    [Whereupon, at 4:52 p.m., the subcommittees were 
adjourned.]









                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




     Material submitted for the record by the Honorable Ted Poe, a 
   Representative in Congress from the State of Texas, and chairman, 
         Subcommittee on Terrorism, Nonproliferation, and Trade



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]

</pre></body></html>
